<html>
<title> - THE FEDERAL BUREAU OF INVESTIGATION'S STRATEGIC PLAN AND PROGRESS ON REFORM</title>
<body><pre>[Senate Hearing 110-793]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 110-793
 
 THE FEDERAL BUREAU OF INVESTIGATION'S STRATEGIC PLAN AND PROGRESS ON 
                                 REFORM 

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, OCTOBER 23, 2007

                               __________

      Printed for the use of the Select Committee on Intelligence


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

48-097 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




























                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]
            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
               CHRISTOPHER BOND, Missouri, Vice Chairman
DIANNE FEINSTEIN, California         JOHN WARNER, Virginia
RON WYDEN, Oregon                    CHUCK HAGEL, Nebraska
EVAN BAYH, Indiana                   SAXBY CHAMBLISS, Georgia
BARBARA A. MIKULSKI, Maryland        ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 RICHARD BURR, North Carolina
SHELDON WHITEHOUSE, Rhode Island
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                   Andrew W. Johnson, Staff Director
                Louis B. Tucker, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk


























                                CONTENTS

                              ----------                              
Hearing held in Washington, DC, October 23, 2007:

Statement of:
                                                                   Page
Rockefeller, Hon. John D., Chairman, a U.S. Senator from West 
  Virginia.......................................................     1
Bond, Hon. Christopher S., Vice Chairman, a U.S. Senator from 
  Missouri.......................................................     4
Kean, Hon. Thomas H., former Chair, 9/11 Commission..............     5
Hamilton, Hon. Lee H., former Vice Chair, 9/11 Commission........     7
    Prepared statement of Thomas H. Kean and Lee H. Hamilton.....     9
Hulon, Willie T., Executive Assistant Director, National Security 
  Branch, Federal Bureau of Investigation, accompanied by Philip 
  Mudd, Associate Executive Assistant Director, National Security 
  Branch, Federal Bureau of Investigation........................    26
    Prepared statement...........................................    28

Supplemental material:

Los Angeles times article, ``FBI working to bolster Al Qaeda 
  cases,'' by Josh Meyer.........................................    41


                  HEARING ON THE FEDERAL BUREAU OF IN-
          VESTIGATION'S STRATEGIC PLAN AND PROGRESS ON REFORM

                              ----------                              


                       TUESDAY, OCTOBER 23, 2007

                               U.S. Senate,
                  Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:40 p.m., in 
room SD-106, Dirksen Senate Office Building, the Honorable Jay 
Rockefeller (Chairman of the Committee) presiding.
    Present: Senators Rockefeller, Feinstein, Wyden, Mikulski, 
Whitehouse, Bond, Hagel, Snowe, and Burr.

OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER, IV, CHAIRMAN, A 
                U.S. SENATOR FROM WEST VIRGINIA

    Chairman Rockefeller. The hearing will come to order. I 
think all of us on the Committee are extremely honored that you 
two gentlemen form our first panel, just like the old days, and 
you bring with you this incredible aura of the originators of 
so much of our thinking of what we've tried to do since that 
point. You will be our first panel. Our second panel will be 
Mr. Willie Hulon--I hope I got that right, and if I didn't, 
I'll apologize to him personally--and Mr. Philip Mudd, the 
leaders of the FBI National Security Branch.
    This branch was established in September 2005 and includes 
the FBI's Counterterrorism and Counterintelligence Divisions, 
as well as the FBI's Director of the Intelligence and Weapons 
of Mass Destruction Directorate.
    Let me begin again by expressing my gratitude to Governor 
Kean and Congressman Hamilton for sharing their thoughts on FBI 
reform with us. Much of the reform that's taken place within 
the intelligence community, in fact, and specifically the FBI, 
can be traced directly to the work of the 9/11 Commission. You 
both deserve an enormous amount of credit for leading that 
effort. This country is indebted to both of you and obviously, 
we look forward to anything you have to say. And that's all the 
praise you get.
    As the 9/11 Commission noted, protecting the U.S. homeland 
from the next terrorist attack involves many agencies and many 
institutions that have not necessarily worked together before. 
And amongst the most important is the Federal Bureau of 
Investigation. The FBI was officially created in 1935, but its 
origins can be traced back to 1908 when, as the Bureau of 
Intelligence, it was authorized to collect foreign 
intelligence, counterintelligence, and criminal intelligence in 
the United States. I recount this fact to reiterate that, while 
the FBI is known as the best crime fighting organization in the 
world, it is always had, in a sense, an intelligence function 
as part of its overall mission.
    We are here today to assess that part of the FBI's mission. 
This hearing will examine whether or not the FBI has the 
necessary vision and planning capability to truly transform the 
FBI into the intelligence-driven organization our country needs 
to prevent the next attack on our soil, if there is to be one. 
To be blunt, from this person's perspective, I'm concerned 
about the FBI's capacity for internal reform.
    In an opening hearing in January of this year, I stated 
that I was troubled that, more than 5 years after 9/11, the FBI 
was only just advancing a few key reforms. Nine months later, I 
still have serious reservations. The FBI's track record on the 
pace of reform is not good.
    In 1993, after the World Trade bombing, FBI Director Louis 
Freeh stated solving terrorist problems was not enough. It is 
equally important, he said, that the FBI thwart terrorism 
before such acts occur. According to the 9/11 Commission 
report, Director Freeh's statement was not accompanied by any 
significant shift of resources to counterterrorism or greater 
focus on intelligence matters--talking, doing--instead of FBI 
field offices often reprogramming counterterrorism funds for 
others--that's what they did; they'd shift that money and it 
went to other places. Five years later, in 1998, and then again 
in 1999, the FBI launched new reforms to enhance its 
intelligence programs.
    After the U.S. embassy bombings in West Africa in 1998, the 
FBI developed a 5-year strategic plan and designated 
counterterrorism as its number one priority. The plan 
``mandated a stronger intelligence collection effort, called 
for a nationwide automated system to facilitate information 
collection, analysis and dissemination, and envisioned the 
creation of a professional intelligence cadre of experienced 
and trained agents and analysts.''
    In 1999, the FBI launched a second round of reforms. 
According to the WMD Commission, both 1999 and 1998, those 
attempts failed. In 2000, after the United States thwarted the 
potential plot on the Los Angeles airport, the FBI engaged in 
its third intelligence reform in 3 years, this one called 
MAXCAP 05, and was supposed to maximize the FBI's counter-
terrorism capability by the year 2005. One year later, a formal 
assessment of that effort found that little progress had been 
made.
    It has been nearly 10 years since the FBI designated 
counterterrorism as its number one priority, yet the most 
significant changes at the FBI in the last 5 years--the 
establishment of a dedicated intelligence service and the 
establishment of the National Security Branch--have not come 
internally from the FBI but from the recommendations of outside 
commissions.
    To be fair, other less dramatic changes do show promise. 
The expansion of the FBI joint terrorism task forces from less 
than 35, before 9/11 to more than 100 today, shows that the FBI 
takes seriously its role in expanding access to information and 
leveraging state and local resources in the fight against 
terrorism. Two, the establishment of field intelligence groups 
in FBI field offices is a definite sign the FBI recognizes the 
need to collect and analyze intelligence at the field office 
level. Three, the FBI's domain management initiative, which 
encourages FBI field offices to proactively identify threats 
and information gaps in their region, has great potential to 
focus field offices on intelligence collection and the 
identification of unknown threats.
    Nonetheless, these programs remain works in progress. 
Furthermore, from my vantage point, these changes have been 
very incremental and not the revolutionary type of change 
required to address the terrorist threat that we face today. 
So, there are big questions for us to address this afternoon.
    Does the DNI have enough authority over FBI intelligence 
programs? Is the FBI developing the analytical capacity it 
needs to understand and address threats? Has the FBI acquired 
or developed information technology tools appropriate for their 
mission? And how is the FBI engaging in long-range strategic 
planning and using change management techniques to ensure the 
reforms planned at FBI headquarters extend throughout the 
entire organization.
    So, we look forward to our distinguished witnesses 
providing us with these insights.
    Mr. Vice Chairman, I apologize, but just before I turn to 
you for your thoughts on this important issue, this Committee--
I want this said loudly and clearly--takes oversight very 
seriously. We have been massively frustrated recently, less so 
with us, the two of us and our Committee working together. Our 
Members share the burden and the privilege of ensuring our 
Intelligence Committee is operating legally, effectively, and 
efficiently, and we're really the only ones who can do it. Are 
we doing a good enough job? Probably not. I've been 
disappointed with the cooperation of the Committee receiving 
information from the FBI in preparing for this hearing.
    In June, our Committee requested--and this is a long time 
ago--our Committee requested several unclassified FBI reports 
relating to today's hearing. Three weeks ago, I discussed the 
matter directly with Director Mueller. The Committee finally 
received the reports last Friday, which is called two business 
days before this hearing. Now, you can make too much or too 
little of that, but this lack of cooperation in acquiring 
information for this hearing is representative to this Senator 
of an overall poor record of FBI cooperation on Committee 
requests for information.
    This is not exclusive to the FBI, but it stands out with 
them. The FBI regularly fails to fully brief the Committee on 
intelligence related to terrorism in the United States, citing 
Department of Justice prohibitions.
    Without this information, Committee Members and staff are 
unable to carry out effective oversight and properly assess the 
terrorist threat within the U.S. homeland. And without such 
briefings, the Committee is unable to assess what sensitive 
intelligence tools the Committee authorizes are most useful and 
whether or not domestic intelligence and counterterrorism 
agencies like the FBI are evolving to meet current and future 
threats and environment.
    Cooperation with this Committee must improve. It absolutely 
must. An agency engaged in true reform, I believe, would 
welcome oversight, not avoid it. The Committee has a deep 
respect for the work of the FBI, especially those on the front 
lines in the fight against terrorism. Our country is grateful 
for their work and aware of their sacrifices.
    This hearing today is about ensuring that we have the best 
domestic intelligence possible to meet changing threat 
environment that we face today, and to do so we must have a 
free flow of information between the FBI and us.
    With that, I turn the microphone over to my esteemed 
distinguished, as I often say, vice president, Senator Bond.

OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, VICE CHAIRMAN, A 
                   U.S. SENATOR FROM MISSOURI

    Vice Chairman Bond. My sincere thanks to our estimable 
Chairman and leader. I join in the welcome of the witnesses and 
thanks for taking time from your busy schedules to be here. The 
main issue we're talking about today really is the FBI 
corporate culture. Has the FBI, in your view, been able to bend 
its law enforcement culture to do what is necessary 
successfully to perform an intelligence role? That's our focus, 
and I'd really like to hear your views and thoughts on that.
    Now, obviously we know the end goal shouldn't be the 
complete transformation of the FBI into an intelligence agency. 
The Bureau has to continue to provide its unique and 
unparalleled law enforcement capabilities to the Nation on 
issues ranging from terrorism to organized crime to kidnapping. 
The FBI has to remain at its core a law enforcement agency. 
Now, we in Congress, of course, send mixed messages about what 
we want the FBI to be. As soon as the Intelligence Committee 
finishes berating the FBI witnesses for not moving fast enough 
on intelligence reform, the Judiciary Committee takes over and 
berates them for not paying enough attention to kidnappings and 
violent crime--a difficult hand to play.
    I must remind our Members, however, on this hearing that 
since this is an open hearing we'll not be able to get into any 
particularly sensitive areas concerning the FBI strategic plan, 
as you don't want to divulge the details to those who might be 
targeted by the FBI. Nevertheless, there is plenty I think we 
can cover in an open session concerning the FBI's culture and 
its need for transformation with respect to the new form of its 
intelligence mission, and our witnesses, particularly good 
friends Governor Kean and Congressman Hamilton will have--to 
me--very interesting testimony on the corporate culture of the 
FBI, and I look forward to discussing whether intelligence and 
law enforcement are ultimately compatible at the FBI.
    Corporate culture's not always a bad thing. Excellent FBI 
record over decades, serving our Nation, enforcing our nation's 
laws against organized crime and bank robberies, and the 
decades of experience and procedures that the FBI has developed 
make it successful, and they are built into the DNA. It seems 
that whatever successes we achieve in bending the FBI to an 
intelligence role might regrettably come at the cost in moving 
the FBI away from its ability to address the law enforcement 
issues, unless we can find an appropriate organizational 
response. Therefore, I'm particularly interested in the 
thoughts of our witnesses.
    Terrorism is, of course, a significant threat to our Nation 
and we count on the FBI to do everything it can to detect, 
deter, and prevent attacks. Intelligence operations at the FBI 
and in many other corners of our Government play a critical 
role in fighting terrorism, but there's an important law 
enforcement component as well. Our Nation depends on the FBI's 
law enforcement activities here at home. Again, we must 
carefully avoid unnecessarily diminishing that capability. I've 
heard Director Mueller say that at times there can be a 
disconnect regarding appropriations to the FBI insofar as the 
funding that comes, or should come through the National 
Intelligence Program, or the NIP, and what congressional 
Committees address that. This disconnect with appropriations is 
another area our witnesses have experience and have some good 
thoughts for.
    Both Congressman Hamilton and Governor Kean, in their lead 
roles on the 9/11 Commission made strong recommendations as to 
congressional oversight which is, frankly, an area that 
Congress has done far too little in, and I'm especially 
concerned about trying to assure that the Intelligence 
Committee, with the specialized staff, the extraordinary amount 
of time that Members spend on this Committee working on 
intelligence issues have some input and participation in the 
appropriations process.
    As Governor, Tom and I used to produce State of the Union 
messages, and if you were smart, you wouldn't listen to the 
State of the Union messages. You'd listen to the budget 
messages because the budget messages tell you what's going to 
happen. That's where you make things happen.
    I understand that Congressman Hamilton is going to be back 
for an open hearing in a few weeks on this topic. Governor 
Kean, I understand you won't be able to attend, so I hope 
you'll share with us today your thoughts on that. This is too 
important an area to leave alone, and my fellow Members of the 
Appropriations Committee, Senators Mikulski and Feinstein, I 
believe we can say we believe it's very important, and we look 
forward to hearing your comments.
    So with that, Mr. Chairman, I think it's probably time that 
we actually listen to the witnesses.
    Chairman Rockefeller. Good suggestion, and we will start as 
we properly should with Chairman Kean.

      STATEMENT OF HON. THOMAS H. KEAN, FORMER CHAIR, 9/11

 COMMISSION, ACCOMPANIED BY HON. LEE H. HAMILTON, FORMER VICE 
                     CHAIR, 9/11 COMMISSION

    Governor Kean. Mr. Chairman, Mr. Vice Chairman, 
distinguished Members of the Select Committee on Intelligence, 
it's an honor to appear before you today on the subject of FBI 
reform. Now, we want to be as helpful as we can as you carry 
out your important oversight work in the weeks and the months 
ahead. We want to make just a few points this afternoon and 
then turn to your questions.
    First, successful reform of institutions of Government 
requires the strongest oversight on behalf of Congress. Reform 
is a long, hard road. Crises distract, attention wavers, senior 
officials are pulled in a hundred different directions. The 
executive branch cannot carry out difficult reforms on its own. 
It has to have the interest and the support of this Committee. 
When the Congress is watching, when it cares deeply about the 
success of reform, the executive branch then stays focused. 
When oversight is robust, then the laws are faithfully 
executed.
    All of us understand that the FBI is going through a period 
of significant change. All of us have seen block-and-line 
charts of the new organizations at the FBI. But do these charts 
mean anything? Are the new offices being staffed? Are the 
reforms really being implemented? And these questions can only 
be answered by the most careful possible oversight by the U.S. 
Congress. There have been FBI abuses in the collection of data. 
These include improper demands for records for Administrative 
subpoenas and inaccurate data for surveillance warrants. These 
abuses have been acknowledged by the FBI, but they've gone on 
for a long time. Who watches the FBI? It's up to the Congress 
to ensure that these abuses are corrected. Congress must 
provide the oversight.
    Second, if fighting terrorism is now the highest priority 
of the FBI, then the role of analysis at the FBI must change 
dramatically. Change is happening, but very, very slowly. Since 
9/11, the number of intelligence analysts has doubled, yet we 
find them still answering the phones. They're still seen as 
support, and they're still treated as second class citizens 
within the FBI. That's the reason for so much turnover.
    Why does this matter? If the FBI is going to become a 
terrorism prevention agency, intelligence analysis must become 
the very core of its mission. Analysis determines the nature of 
the threat. The nature of the threat determines the allocation 
then of resources. You can't defeat terrorism by police work 
alone. Those efforts must be guided and targeted by our very 
best assessment of the domestic threat. That's why analysis and 
individual analysts matter.
    Third, we continue to be impressed with the importance of 
human capital development. You can't transform the FBI into a 
terrorism prevention agency unless you create the workforce to 
carry out that mission. There's a world of difference between 
snooping for intelligence and chasing criminals, and the 
training must reflect that difference.
    There is still not a good training program in place for FBI 
analysts. There is still not a good career path. There are 
still too few analysts who are role models, are put out there 
in positions of responsibility. Counterterrorism work at the 
FBI requires not only analysts, but also a wide range of 
talents--surveillance teams, translators and agents who can 
speak Arabic and other critical languages. The FBI does not 
devote enough resources to these surveillance teams. The FBI 
still has a deficit of translators. There's a deficit of 
special agents who speak Arabic. Last I saw, only 33 out of 
12,000 agents speak Arabic, and some of them not very well.
    The FBI lacks the ability to detect and infiltrate 
suspected terrorist organizations. More agents who speak 
Arabic, Pashto, Urdu and other critical languages would 
strengthen the ability of the FBI to plan and infiltrate 
extremist groups.
    It requires great efforts to recruit, hire, train and 
retain a quality workforce. Human capital should be the highest 
priority at the FBI. All FBI employees need to know that they 
are valued members of the team. Special agents, as talented as 
they are, just simply can't do it alone. Every part of the FBI 
workforce is necessary to accomplish the terrorism preventive 
mission.
    And at this point, I'd like to turn to my colleague and 
friend, Lee Hamilton.

  STATEMENT OF HON. LEE H. HAMILTON, FORMER VICE CHAIR, 9/11 
                           COMMISSION

    Mr. Hamilton. Thank you very much, Governor.
    Mr. Chairman, Mr. Vice Chairman, Members of the Select 
Committee on Intelligence, I appreciate, along with Governor 
Kean, the opportunity to be with you today. And I hope that we 
can be helpful to you.
    As I've looked at the problems of the FBI in the last few 
years, I am impressed by how many of them are really management 
problems. Time and again, when the FBI has run into trouble, it 
seems to me, it has a computer system failing or, on questions 
like the national security letters, the central problem really 
has been a failure of management.
    I think we usually think of the FBI as a law enforcement 
agency and prosecuting in a court of law. Tracking down 
criminals and the like has been its traditional role. But FBI 
now has become a very big organization--I think about 30,000 
employees, $6 billion or $7 billion budget, whatever it is. And 
it has huge management responsibilities that clearly the FBI 
has struggled with in the last few years. It cannot become the 
first-class terrorism prevention agency that the country needs 
unless it has at the top of the agency very good managers.
    Everyone acknowledges the skill of the special agent. 
They're critical to the future of the FBI. But under this day's 
agency, the skill of the manager is just as important. You 
cannot expect agents and analysts or anyone else at the FBI to 
perform at the peak of their abilities unless they are trained 
and supported and assisted and rewarded according to the 
principles of good management. The FBI has begun all of this; 
it needs to continue to bring in management talent from the 
outside into its current structure.
    The next point that Tom and I make is that the FBI simply 
has to have more resources. I know the budget has increased, I 
think maybe doubled in the last few years. The number of FBI 
special agents, the intelligent analysts and the professional 
support positions, however, have been static. You cannot have 
terrorism prevention and law enforcement on the cheap.
    I was very pleased to hear the Vice Chairman just a moment 
ago emphasize--I think I quote him correctly--that at its core, 
the FBI is a ``law enforcement'' agency. You don't hear that 
language at the FBI today. They don't talk about that being the 
core responsibly of the FBI. They see the core responsibility 
today not as law enforcement, but counterterrorism.
    I worry about the future of law enforcement. The Chairman I 
think said that the FBI is the preeminent law enforcement 
agency. It surely is, and it is so perceived by State and local 
police across the country. Since 9/11 the FBI resources devoted 
to criminal investigations are down some 30 percent, 
prosecutions are down 30 percent, and this at a time when 
violent crime in the United States is continuing to surge.
    I personally oppose budget cuts in the Nation's premier law 
enforcement agency. And if you're going to give them two 
tasks--one to carry on intelligence and counterterrorism, and 
add that onto the responsibly of law enforcement and not have 
any weakening of the law enforcement responsibility--you've got 
to increase their capabilities and their resources.
    I know the Congress' record here has been pretty good. It 
has consistently voted to increase the President's request for 
the FBI. The FBI director, I think it's no secret, is very 
frustrated because many of his budgets are cut back by the 
Attorney General and by OMB and other actors in the budget 
process. So I would encourage the Congress to continue its 
efforts to see that this FBI is fully resourced with regard 
both to law enforcement and to counterterrorism.
    One agent said to me not too long ago--he said, we could 
not prosecute an Enron case today. I don't know if that agent 
is correct or not, but it makes me nervous because every day I 
pick up the paper and in the business section I see a lot of 
malfeasance in the financial sector. Likewise, I pick up the 
paper and I see a lot of malfeasance in the public officials 
section of the economy and that worries me. And I want to see 
those people prosecuted. And I don't want to see the FBI 
diminished in its ability to bring those prosecutions because I 
think they're terribly important to the health of the Nation.
    Finally, let me just say that we want to close by talking 
about the FBI's vision of the future. I think it's very 
important for us to get a better understanding of where is the 
FBI going to be 10 years from now? I'm not sure I can answer 
that question. I don't know if I have heard the FBI people 
answer the question. But if you don't know where you're going 
to be 10 years from now, you're not going to be providing very 
effective leadership to the FBI. And so there has to be a 
vision here of where this very important agency is headed--a 
clear and simple vision that has to be spelled out.
    What confidence can the American people have that they're 
going to be safe from attack, that their criminals are going to 
be prosecuted, their civil rights protected, if you don't have 
a vision of where the FBI is going? The FBI has a history of 
reform. I was impressed by the Chairman's recitation of it. 
Reform efforts haven't always been very successful, I think.
    But it has come through the 1960s and the seventies, when 
we had dark days of surveillance of civil rights leaders. I can 
remember, Senator, sitting in the cloakroom of the House of 
Representatives and listening to Members of the House talk 
about how the FBI was going after some of the most prominent 
civil rights leaders in this country, and how appalled I was 
that the FBI was using its skills to investigate civil rights 
leaders. Some applauded it, I did not. But the FBI came out of 
that and they rededicated themselves to the rule of law, 
changing, I think, its reputation and the country for the 
better. So I would urge you to push forward in getting the 
leaders of the FBI to spell out their vision of the future of 
the FBI.
    This Committee is hugely important in making the FBI work 
properly and I was delighted to hear the Chairman emphasize a 
moment ago that you take oversight seriously because as 
Governor Kean said a moment ago, I don't know where you oversee 
the FBI if you don't do it right here. And that is a tremendous 
public responsibility that you have.
    Thank you.
    [The prepared statement of Governor Kean and Mr. Hamilton 
follows:]
Prepared Statement of Thomas H. Kean and Lee H. Hamilton, Former Chair 
                 and Vice Chair of the 9/11 Commission
    Mr. Chairman, Mr. Vice Chairman, distinguished members of the 
Select Committee on Intelligence: It is an honor to appear before you 
today on the topic of FBI reform.
    We want to be as helpful as we can, as you carry out your important 
oversight work in the weeks and months ahead. We want to make just a 
few points this afternoon before we turn to your questions.
                        congressional oversight
    First, successful reform of the institutions of government requires 
strong oversight by the Congress. Reform is a long and hard road: 
Crises distract. Attention wavers. Senior officials are pulled in a 
hundred different directions. The Executive branch cannot carry out 
difficult reforms on its own. It needs the interest and support of this 
Committee.
    When the Congress is watching, when it cares deeply about the 
success of reform, the Executive branch stays focused. When oversight 
is robust, the laws are faithfully executed.
    All of us understand that the FBI is going through a period of 
significant change. All of us have seen the block and line charts 
showing the new organization of the FBI.
    --Do these charts mean anything?
    --Are the new offices being staffed?
    --Are reforms being implemented?
    These questions can only be answered through careful oversight by 
the Congress.
    There have been FBI abuses in the collection of data. These include 
improper demands for records through administrative subpoenas, and 
inaccurate data for surveillance warrants. These abuses have been 
acknowledged by the FBI, and they have gone on for a long time.
    Who watches the FBI? It is up to the Congress to ensure that these 
abuses are corrected. Congress must provide oversight.
                         intelligence analysis
    Second, if fighting terrorism is the now the highest priority of 
the FBI, then the role of analysts at the FBI must change dramatically. 
Change is happening, but so far very slowly.
    Since 9/11, the number of intelligence analysts has doubled. Yet 
intelligence analysts are still answering the phones. They are still 
seen as support. They are still second-class citizens within the FBI.
    Why does this matter? If the FBI is going to become a terrorism 
prevention agency, intelligence analysis must become the core of its 
mission. Analysis determines the nature of the threat. The nature of 
the threat determines the allocation of resources.
    You cannot defeat terrorism by police work alone. Those efforts 
must be guided and targeted by our very best assessment of the domestic 
threat. That is why analysis--and the analyst--matters.
                       human capital development
    Third, we continue to be impressed with the importance of human 
capital development. You cannot transform the FBI into a terrorism 
prevention agency unless you create the workforce to carry out the 
mission.
    There is a world of difference between snooping for intelligence 
and chasing criminals--and the training must reflect that difference.
    There is still not a good training program in place for FBI 
analysts.
    There is still not a good career path. There are too few analysts 
who are role models or in positions of responsibility.
    Counterterrorism work at the FBI requires not only analysts, but 
also a wide range of talents: surveillance teams, translators, and 
agents who can speak Arabic and other critical languages.
    --The FBI does not devote enough resources to surveillance teams.
    --The FBI still has a deficit of translators. It has a deficit of 
special agents who speak Arabic. Only 33 out of 12,000 agents speak 
Arabic--and most of them not very well.
    --The FBI lacks the ability to detect and infiltrate suspect 
terrorist organizations. More agents who speak Arabic, Pashto, Urdu and 
other critical languages would strengthen the ability of the FBI to 
plant and infiltrate extremist groups.
    It requires great effort to recruit, hire, train, and retain a 
quality workforce. Human capital should be a very high priority for the 
FBI.
    All FBI employees need to know that they are valued members of the 
team. Special Agents--as talented as they are--cannot do it alone.
    Every part of the FBI workforce is necessary to accomplish the 
terrorism prevention mission.
                               management
    Fourth, so many of the questions before the FBI--whether people, 
hardware, or software--involve questions of management. Time and again, 
when the FBI has run into trouble--whether it has been with computer 
systems or with national security letters--the central problem has been 
a failure of management.
    The FBI cannot become the first class terrorism prevention agency 
the country needs and demands, unless it has top-flight management.
    Everyone recognizes that the skills of special agents are critical 
to the future of the FBI. So are the skills of senior managers. You 
cannot expect agents, analysts or anyone else at the FBI to perform at 
their peak unless they are trained, supported, assigned, and rewarded 
according to the principles of good management. The FBI has begun--and 
needs to continue--to bring in management talent from outside its 
current structure.
                               resources
    Fifth, the FBI must have more resources. For the past 2 years, the 
number of FBI special agent, intelligence analyst and professional 
support positions has been static. You cannot have terrorism prevention 
and law enforcement on the cheap.
    We worry especially about the future of law enforcement. Since 9/
11, FBI resources devoted to criminal investigations are down some 30 
percent. Prosecutions are down 30 percent. At a time when violent crime 
in the United States continues to surge, we strongly oppose budget cuts 
in the Nation's premier law enforcement organization.
    Congress, to its credit, has consistently voted to increase the 
President's request for the FBI. We can and simply must provide the 
resources to protect our citizens against both crime and against 
terrorist attack.
                         vision for the future
    Finally, we want to close by talking about the FBI's vision for the 
future. The Bureau has been in upheaval and change for the past 6 
years. Change has been necessary, but the American public also needs to 
know at the end of the day what all these changes mean and where they 
will lead.
    The FBI Director or the new Attorney General needs to spell out for 
the country a clear and simple vision for the future of the FBI. What 
will the FBI look like, and what will its future activities include, 
and not include? What confidence can the American people have that they 
will be safe from attack, and that their civil liberties and rights 
will be protected?
    The FBI has an important history of successful reform. It came out 
of the 1960s and 1970s--dark days of surveillance of civil rights 
leaders and anti-war protesters--and built itself anew. The FBI 
rededicated itself to the rule of law, changing both its reputation and 
our country for the better.
    Now the challenge is before our leaders to spell out their vision 
for the future of the FBI. We look to the Congress and to this 
Committee to exercise robust oversight--to ensure that this vision 
matches the needs, values and aspirations of the American people.
    Thank you for your time and attention. We look forward to your 
questions.

    Chairman Rockefeller. Thank you both very much.
    And I'll just, Vice Chairman Hamilton, start with your last 
sentence. We do have oversight of the FBI, but only of the 
intelligence component of the FBI. So it makes it very awkward 
for us to put the intelligence component in perspective with 
what it is that we do not have oversight over, which is the 
criminal investigation and all the rest of it. And thus we 
don't have a perspective. I guess I have to be a little bit 
personal here, but the FBI has traditionally been run by people 
of great firmness and great self-certainty. And there's nothing 
that comes down more quickly through the ranks than that 
characteristic.
    My question to you simply is this. Over the months this 
Committee has become much more familiar in our oversight 
responsibilities--but just from other aspects, too--of the DNI 
coming in, Admiral McConnell and the CIA and the DIA and 
others. And then they'll come in informally, they'll come in 
formally. We have a kind of a relationship with them which 
nourishes candor and mutual trust.
    We don't have that with the FBI. You know, there's the 
annual threat briefing, which is one of the relatively few 
times that we see the Director of the FBI. That's held in this 
room--lots of very broad statements made. And so when the 
Chairman was talking about the lack of languages, in 9 years 
what kind of improvement, what was also in my statement, you 
know, your career can depend upon what you do or don't do.
    Well, that's true in the CIA and the DIA and other places. 
But it seems to be truer in the FBI than in most other places. 
And I think risk aversion, therefore, is more likely to be the 
result. That does not lead to the kind of aggressiveness with 
respect to intelligence.
    The Chairman referred--or maybe it was the Vice Chairman--
referred to only a very few intelligence agents really have 
been recruited compared to what is necessary, much less their 
language skills.
    So my question to you is, is there anything in your minds 
that is different about the FBI with a suddenly--not going to 
back to 1908, you know, but let's face it, up until recently--
now suddenly a bifurcated responsibility of domestic 
tranquility and domestic intelligence. Why is it they can't get 
a handle on that, either technologically or get enough people? 
People are singing up for the CIA and the DIA and others in 
greater quantities than ever before in our history, and their 
quality is the highest ever. Why not the FBI?
    Governor Kean. That's good question, and a difficult one. 
I'm not sure I know the answer.
    It is a very different agency. I mean, it was created 
basically around the image of one man who was head of that 
agency for longer than anybody who ever had, in my mind, of any 
Government agency in history and therefore is very much of a 
top-down, kick-in-the-door and- bring-people-to-justice kind of 
an organization. The old FBI people still have that image of 
themselves I think and their organization. And now, in trying 
to transform itself in a way that's probably deeper and in a 
larger way than any other intelligence organizations might have 
to do it, they're into problems. And it's a problem of culture 
and problems of history.
    And you've seen, in the side of the agency that has to be 
transformed--the one talking about counterterrorism, 
basically--a tremendous turnover. I mean, people come there and 
get frustrated and they leave, and then somebody else comes in. 
And you can't, I don't think, effectuate the kind of change 
this Committee wants and we've all been talking about since the 
Commission with that kind of turnover.
    And the only thing I can suggest is, because I think Mr. 
Mueller's vision is correct and he talks to us and he talks to 
you, it seems to me the right direction. But somehow he's got 
to transform that down through the agency and that's just 
happening very, very slowly. And I think it frustrates 
everybody.
    Mr. Hamilton. I think that, along with Governor Kean, that 
there's just no doubt at all about Director Mueller making an 
all-out effort to reform the FBI. He is totally committed, as I 
think you all know, to the task of changing the central 
function of the FBI and he's a very able Director. And he's put 
an enormous amount of energy into the task. Having said that, 
changing a corporate culture, as Senator Bond referred to, is 
just exceedingly hard to do and particularly when you're trying 
to change it from law enforcement to intelligence--domestic 
intelligence. Those are two very, very different tasks. 
Different skills are needed, different training is needed. And 
it's not easy to change, so you have at the top of the FBI a 
genuine desire to change.
    To what extent that penetrates down the organization I 
think is the big question. And the answer is that it's a very 
mixed situation. You visit some FBI offices and they're totally 
committed to the change and the direction that Director Mueller 
is trying to take it, and you visit other FBI offices and other 
agents and they'll say, ``Nothing doing. This is a law 
enforcement agency.'' And you can't reasonably expect, I think, 
to change that culture in several years' time. I think it's 
going to take much longer than that. I originally was more 
optimistic about it than I am now.
    The second point to make with regard to this difference 
with the Chairman's question is just the sheer difficulty of 
the task. If you look at what the FBI is doing now, as your 
staff reports have indicated, they are trying to make many, 
many changes--changes in the relationship with the DNI, changes 
with regard to the integration of the analyst into the system, 
changes with regard to the Field Intelligence Groups and the 
Joint Terrorism Task Forces, changes with regard to technology, 
changes with regard to strategic planning, changes with regard 
to the management structure, changes with regard to how you 
deal with human resources in the FBI.
    And you put all of that out in front of you as the agenda--
and that is the agenda of the FBI today--and you just see that 
the task is very hard to achieve. We have to have an 
appreciation of that and a certain sympathy for the difficulty 
of the task.
    Having said all of that, I think we come down on the side 
that all of this effort has moved too slowly and not with the 
urgency that we would like to see it move forward.
    Chairman Rockefeller. Thank you, sir.
    The Vice Chairman.
    Vice Chairman Bond. Thank you, Mr. Chairman.
    Congressman Hamilton, following up on your point, looking 
back on the 9/11 Commission recommendations, it's clear from 
the Commission's report that you struggled with the issue of 
whether to create a domestic intelligence agency along the 
lines of the British Secret Security Service known as MI-5, 
where my distant relative got so much good publicity for the 
family. Reflecting on what you have seen since your 
recommendation's come out, do you feel that the intelligence 
and law enforcement cultures can ultimately be compatible at 
the FBI, or will they always be in conflict? Do you still 
prefer to see the counterintelligence and the law enforcement 
agencies kept in a single entity?
    Mr. Hamilton. The answer is yes. My view, at least, is 
fundamentally unchanged from the time that we wrote the report. 
It would be of interest for Tom and me to go and check with the 
other Commissioners and see how they view it at this point. I 
am frustrated, as I guess you are, with the pace of reform, but 
that does not mean that we are at the point of advocacy for the 
MI-5 approach. With all of the talk about MI-5, I don't think 
we've examined it very carefully. I don't think we, including 
myself, really understand what an MI-5 would be like in the 
United States. We have a kind of romanticized idea of how it 
operates over in England and think, therefore, we can shift it 
over here. I don't think it's that simple.
    One of the things that impresses me, Senator, is I don't 
think we really have delved deeply into what an MI-5 is. I am 
at the point--I know some academics have supported the MI-5 and 
some other people--but I'm not at a place where I would 
advocate that. I'm still on the track of saying to the Director 
``you're going in the right direction; we need to help you.'' 
We need to do all we can to encourage that change that you're 
talking about.
    I also think that you are at a time when the FBI is going 
through such enormous change, now, as I recited a moment ago, 
that if you come along and say at the same time, ``OK, we're 
going to abolish the FBI; we're going to create two 
institutions, law enforcement and counterterrorism,'' that's 
going to take a lot of statutory work. It's going to take all 
kinds of change in the bureaucracy and you'd be 10, 15, 20 
years working at it.
    Vice Chairman Bond. That's not an encouraging prospect.
    Mr. Hamilton. No, it's not. But look how long it takes to 
make a department work well. We created the Department of 
Energy back in the 1970s--I'm not here to testify on that--but 
that's still a big problem. We created DHS, whenever it was, a 
few years back--horrendous problems.
    Vice Chairman Bond. That still isn't----
    Mr. Hamilton. Still not working well. OK, you're going to 
come along and create a lot more change in your FBI--I'm not 
ready to go that route yet.
    Vice Chairman Bond. Tom, in addition to commenting on that, 
since you won't be here, I would be interested if you would 
want to share any views on the problem that I mentioned, 
appropriations coordination with the intelligence community, 
and simply your suggestions maybe for what do we do now? What 
would you urge Congress to do in all these areas we've touched 
on?
    Governor Kean. Well, I'd just briefly say I agree with Lee 
totally on the MI-5 question. We talked about it at long length 
in the Commission, even to the extent of having the head of MI-
5 come and testify before us, and we basically came to the 
conclusion that the kind of effort and the kind of cost and the 
time would be incredible--with no guarantee that we'd be better 
off afterwards, and that therefore trying to reform an existing 
organization is probably a better way to go.
    As far as your other question, it was one, again, that 
concerned us deeply on the Commission. We felt the success of 
the new DNI, of the FBI reforms, of the whole intelligence 
apparatus was very dependent on this Committee, frankly, and on 
the success of your oversight. And we still believe that very 
strongly. But we also know what you mentioned in your opening 
remarks and what you and I both knew as Governors and you know 
also here--that it's the money they pay attention to and who 
has the appropriating power that really brings change. And so 
we felt very, very strongly that members of this Committee had 
to have a say in that appropriating process, and that if you 
didn't, you were never going to be as effective as you could 
and should be.
    And we talked about it a lot because, as you know, the 
majority of the members of the 9/11 Commission were former 
Members of the Congress and a lot of them had been former 
members of either this Committee or the House Committee. So 
they knew the difficulties and they knew the problems. And we 
all said afterwards this may be our hardest recommendation to 
have implemented, but it's also, we believe, our most 
important, because if Congressional oversight is really as 
vastly important to the whole structure of the rest of our 
intelligence apparatus as we believe it is on the Commission, 
then you've simply got to have a say in the appropriating 
process if you're going to be fully successful.
    Vice Chairman Bond. Anything further on that Lee?
    Mr. Hamilton. I obviously agree with the Commission's 
report and the comments that Tom made. No effective oversight, 
unless you can affect the budget. Believe you me, they've got 
this figured out at the CIA and at the FBI. And they know where 
the money comes from. And they know the process is so screwed 
up in appropriating, in the budget, in the Congress that they 
jack you around. That's what they do. They play you because the 
system is so dysfunctional in the Congress and the budget 
process today that what it does is permit the bureaucrats to 
game the system, to go around the authorizing Committees and 
deal with an Appropriation subcommittee, Defense, which doesn't 
have time for intelligence because they're running a couple of 
wars and have all other kinds of responsibilities. So you've 
got to have the budget power.
    And Mr. Chairman, when you said a moment ago--I knew this--
that you have oversight over intelligence, but not over law 
enforcement, I'll give you my reaction to that. It doesn't make 
any sense at all. Congress has got to get itself in shape so it 
can do effective oversight. If you're going to oversight at the 
FBI, you can't pick out a little part of it, or even a major 
part of its work and exclude a major part of it. There is, 
after all, a relationship between law enforcement and 
intelligence and to just have a half oversight doesn't make any 
sense to me at all.
    Chairman Rockefeller. Thank you, sir.
    Senator Feinstein.
     Senator Feinstein. Thank you very much, Mr. Chairman. And 
thank you both so much for your leadership, for being here, for 
your continued public service; it really is appreciated.
    I initially believed that the culture conversion that both 
the Chairman and Vice Chairman spoke about could be 
accommodated. I now am not so sure. I'm also very, very 
concerned because violent crime is going up in this country; it 
has become one of the lowest FBI priorities today. They have a 
shortage of 1,000 agents in that area and yet we have added, 
it's a classified number, but let me say it's in the billions 
of dollars to create this change of culture.
    I was just reading in our binders a very interesting staff 
report and I want to just quickly tick off some of the things 
the staff has found and asked you to respond to them.
    The first is in the area of pace of reform and elevation of 
analysis and new initiatives that the FBI have proposed. The 
first thing: Field Intelligence Groups. They were established 
in 2003 to integrate the intelligence cycle into FBI field 
operations. Independent audits, SSCI--our staff--visits to 
field offices in 1907 found that these groups lack clear 
guidance on their mission, are poorly staffed, are led 
overwhelmingly by special agents and are often surged to other 
FBI priorities.
    Secondly, although the number of intelligence analysts has 
doubled from 2002 to 2007, the FBI continues to face 
difficulties in training, managing and retaining analysts. The 
DOJ Inspector General found that the professional divide 
between analysts and special agents remains a problem. In 2004, 
the FBI was granted the authority to obtain 24 senior 
intelligence officer positions, portrayed as critical to the 
FBI's intelligence mission. As of today, the FBI has hired, 
according to this, only two senior intelligence officers.
    In technology we all know about the imposition of the 
virtual case file, after spending $170 million. Currently, the 
FBI has no ability to electronically store and share images and 
audio files associated with their intelligence investigations. 
I mean, it's been a long time.
    Headquarters staffing: The FBI has struggled to staff key 
intelligence positions. In March 1907 the Committee learned 
that only 60 percent of the counterterrorism supervisory 
special agent positions were filled. In the headquarters 
section that covers Al-Qa'ida-related cases, more than 23 
percent of the supervisory special agent positions were vacant. 
The FBI has received less than 3 applicants for the 20 special 
agent desk officer positions, which were posted before April of 
this year.
    Now, the next one is senior and mid-manager turnover rates. 
The Department of Justice Inspector General stated in 2007 that 
senior and mid-level management turnover has definitely hurt 
accountability, effectiveness, and the pace of reform. At the 
senior level, the top counterterrorism position at the FBI has 
been held by seven different special agents in the last 5 
years.
    Well, this is staff work. As you read this--and this isn't 
the first year we've read it--you begin to come to the 
conclusion of being a real skeptic as to whether this change in 
culture, A, can be achieved and B, whether it's desirable to 
try to achieve it. You know, the FBI is what it is--a great law 
enforcement agency. It isn't an intelligence agency. So I am 
coming to question, as we spend more and more and more every 
year, whether the money is in effect being well spent.
    I'd appreciate any comments you'd care to make. I think 
it's all fair game.
    Mr. Hamilton. My impression, Senator, as you read through 
that list is I agree with it all. And I think your staff has 
done a very good job in identifying the problems that the FBI 
confronts.
    The best you can say about the FBI at this point, it seems 
to me, is it's a--and I think this phrase was used by the 
Chairman, maybe--it's a work in progress. And you have to 
acknowledge that it's been a rough, rocky road here and there.
    Now, do you at this point say we're going down the wrong 
path? I indicated a moment ago that I don't think we are. And I 
would want to redouble our efforts, redouble the oversight to 
achieve the kind of FBI that the Director has set out. But I 
have to acknowledge it's an arguable case. You do have to think 
about the consequences of going the direction you're 
suggesting, which is to create--I gather--a law enforcement 
agency separate from a domestic intelligence agency. I think if 
you were beginning de novo--as the lawyers say--you probably 
wouldn't go the direction we're going today. They're two very 
different functions.
    But because we have now gone down this road for 5 years, 
because a lot of progress has been made--even though it's 
uneven and even though it's slow--I would personally think we 
ought to continue down that road for a while. And before you go 
to the conclusion that we ought not to go down that road, I 
think you've got to look very, very carefully at how you would 
structure an MI-5 in this country.
     Senator Feinstein. Thank you.
    Governor Kean, would you respond, please.
    Governor Kean. Thank you, Senator.
    First of all, congratulations to your staff. I mean, that's 
a first class----
     Senator Feinstein. It's the Committee staff.
    Governor Kean. Committee staff. That's a first-rate 
compilation of the problems and the problems are very real. And 
everything in there, as far as I know, is accurate.
    Now, the question we always look at is what is the 
alternative? And we've come to the conclusion--I think Lee and 
I and other members of the Commission--that this is probably 
the best we can do at this point. And what we've really got to 
do is put the hammer on, in a sense, both from your Committee 
and the oversight you have, the DNI--I mean, we set the DNI up 
to have direct oversight. And whether that direct oversight is 
occurring the way it should I think you probably know better 
than I do. You can certainly ask the right questions.
    But we have the tools, it would seem to me, to really 
insist that the kind of thing that you all support--the 
American people, I believe, support--is done by the FBI and 
these deficiencies are corrected. I think Lee and both believe 
you have a Director who wants to do that.
    The turnover is terrible. The recruiting has not been what 
it should be. I don't know all the reasons for not being able 
to get--as the Chairman said--the proper people recruited. But 
those are the questions. And we believe that continuing down 
this path, as difficult it may be, is probably the preferable 
course.
     Senator Feinstein. If I could just say one quick thing--
and I thank you. The question comes: If the fish is out of 
water, no matter what you want to do to give the fish wheels to 
operate on land, it doesn't really work. And after these years, 
and I've serve on Judiciary, so we've had the FBI oversight 
meetings, and I've discussed this with Director Mueller. And 
they're all, you know, they all feel they want to do it. I've 
been at a convention with him when he spoke to the agents about 
the change in culture. The question I have is whether it really 
can be done.
    Governor Kean. It's a tough, tough question after five or 6 
years. We believe it's enormously difficult, but they're trying 
to get it done is a better alternative right now. But it's 
getting a closer and closer call.
    Mr. Hamilton. I think the time and the cost and the 
difficulty of the kind of transition that you're suggesting 
would be, in my judgment at this time, prohibitive, with no 
guarantee that what you would end up with is any better than 
what we now have. That's what holds me back in going the route 
you're thinking about.
    And the changes that we, partly the 9/11 Commission, 
recommended in the Federal Government at large--restructuring 
intelligence, restructuring homeland security and a lot of 
other parts of the Government--are just about all this 
Government can absorb, I believe, at this time. You can 
overload the reorganizational circuit.
     Senator Feinstein. Thank you.
    Chairman Rockefeller. Thank you very much.
    Senator Mikulski.
    Senator Mikulski. Thank you, Mr. Chairman, Mr. Vice 
Chairman.
    Before I go into my----
    Chairman Rockefeller. Senator, may I just----
    Senator Mikulski. Yes, sir.
    Chairman Rockefeller. I'm sorry. This very rude of me. The 
Chairman has a 4:00 train to catch. My calculation says that 
he's already missed it.
    Governor Kean. Yeah, probably. I think I'm going to try to 
make the 5:00. Thank you for your courtesy.
    Chairman Rockefeller. OK. Excuse me.
    Senator Mikulski. I appreciate it. That's the Amtrak, and 
that's another topic for reorganization, revitalization, 
resources. We're talking about the three Rs.
    But before I go into the question and the points of the 
oversight, I want to, before this Committee and all who are 
watching, express both a personal and professional expression 
of gratitude to Congressman Lee Hamilton for something that he 
did so extraordinarily for a constituent of mine, Dr. Haleh 
Esfandiari, who is at the Woodrow Wilson Center, who returned 
to Iran, returned there to visit with her mother and was 
arrested and placed into an Iranian prison from which she had 
no access to legal representation and other things.
    We all worked very hard, and I know Senator Feinstein was 
engaged in this, to be able to free her. It was Congressman 
Hamilton's outreach to the Ayatollah himself that was able to 
free her. I'm happy to report to this Committee, as all know 
from press accounts, she's back home. She's back at work. And 
we can't say enough to thank Congressman Hamilton for his 
wonderful work. So I just wanted to say that.
    Mr. Hamilton. Thank you very much.
    Senator Mikulski. And to both Governor Kean and Congressman 
Hamilton, we just want to thank you for not only what you did 
on the 9/11 Commission, but your steadfast oversight of what 
we're doing on oversight to keep the momentum going that the 
Nation asked us to be able to do after September 11, 2001.
    I just want to make some comments and then get to a 
question about the oversight. I chair the subcommittee that 
funds the FBI. I am an unabashed appropriator. It is in that 
committee called Commerce Justice Science that we have the FBI 
and all other Federal law enforcement, with the exception of 
Secret Service--DEA, the Marshals Service, and the Bureau of 
Alcohol and Firearms.
    I want to talk a minute about that. But before I do, I have 
to say to Rockefeller and Bond, thank you for having this 
hearing, because for a long time it was only the Appropriations 
Committee after 9/11 that was looking at the FBI. This 
Committee, until this past year plus, did not look at it. In 
fact, I would venture to say, most of Congress did not realize 
the new and stunning responsibility we gave to the FBI unless 
they goofed somewhere. And so I thank Senator Rockefeller and 
Senator Bond for holding this.
    And what I'd like to do as part of our congressional 
oversight hearing, which I'm eager to look at, is to talk about 
how next year we can actually work together in terms of the 
appropriations oversight. I intend at that time--because you're 
exactly right, we hold one hearing with the FBI. It's open. 
It's public. We can't dig in. I will intend next year, for my 
Federal law enforcement, to have a public hearing and then also 
a classified hearing, but that we would work with our team on 
intel, because I can say this. What we appropriators have done 
is, first of all, clean up the mess where they boondoggled, 
like the case management system. One hundred seventy million 
dollars went down the drain in a mismanaged case management 
system. We're now back on track, and I know the Committee has 
looked at it.
    Second, we try to stop bad things from happening. The 
Administration was actually moving agents out of law 
enforcement--Senator Feinstein has detailed it through her 
excellent staff--and put them into fighting terrorism. Well 
violent crime is up, as all of you know, substantially in our 
communities whether it's Indiana, New Jersey, or Maryland.
    So we stopped that. We appropriators stopped that again, 
working on a bipartisan basis with Senator Shelby, saying, 
``Leave the FBI, who's fighting violent crime there, but we 
need to have new people there.'' So that's all we've been able 
to do through the appropriations process.
    The second thing is MI-5. I traveled to England to see how 
we were working there with this faithful ally and met with Dame 
Eliza. You know how in those James Bond movies--that's the 
cousin Senator Bond talks about--but Bond is Kit Bond, he's a 
shaker and a stirrer, if I might add. But it was Dame Eliza who 
headed up MI-5 and brought 30 years to the intelligence 
experiences.
    Don't create a new agency. Don't worry about new boxes and 
new charts and so on. You have to do what you need to do. And 
what she was concerned about is that America gets too involved 
with agencies and bureaucracy, and she cautioned us on that. 
And what she said was that MI-5 built up over a 50-year period 
after the end of World War II, as it moved into the cold war 
and other challenges that they faced.
    So I would welcome that when we discuss this, Senator Bond, 
in more detail, that perhaps Dame Eliza would come across the 
pond and actually have maybe a roundtable visit with us and 
share her knowledge.
    So those are my comments. But the last--if I could go to 
the issue of cultural transformation. Do you believe that one 
of the areas we, both through oversight, as well as 
appropriations, should do is focus on the analyst area? Because 
I'm concerned not so much about the number, but as you 
indicated in your testimony, that they are stepchildren, that 
they're answering phones. They're doing administrative work.
    They're not analyzing, which was the dots, connect the 
dots, so that the agents could do what they need to do, and it 
could go up the chain to other policymakers at the DNI, and 
that that is one of the areas where we could make substantial 
inroads if we said let the analysts be analysts, have the 
translators we need, but that that particular area could be one 
of the great and also a real career path for them.
    Would this be one of the key--we can't focus on it all. 
Would this be an area that you would recommend, or would you 
have others?
    Governor Kean. That's an enormously important area. I mean, 
it's been said that some of the analysts feel they're being 
treated as glorified secretaries. These are professionals. And 
if you get them, train them and retain them----
    Senator Mikulski. And there are 2,300 of them.
    Governor Kean. Yes, absolutely right. The FBI cannot become 
a terrorism prevention organization unless analysis and 
analysts are at the core of their counterterrorism mission. 
There are just too many threats out there from too many 
organizations. There are too many potential targets, too many 
different methods of attack.
    You can't address the threats unless you can analyze them. 
And analysis determines the nature of the threat. The nature of 
the threat then determines the allocation of how you do your 
resources. If you're going to be successful in a 
counterterrorism prevention organization, the most important 
function is probably that of the analysts.
    And so far, I don't think the FBI really understands or 
agrees with the statement I just made. Just look at the 
training program, the career path for analysts, and just look 
how many senior management positions they hold. Take a look at 
that. That's where I think the FBI has got to make a very 
fundamental change.
    Senator Mikulski. Mr. Chairman, I know the clock is ticking 
and my time has expired. Those other questions that I have will 
be saved for the FBI themselves. Thank you.
    Chairman Rockefeller. Thank you, Senator Mikulski.
    And I now call on Sheldon Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Chairman Rockefeller. Senator Whitehouse.
    Senator Whitehouse. Gentlemen, to both of you, thank you 
very much for your service. As Senator Mikulski has said, it's 
very impressive to me not only that you have done the report--
lots of people in Government are asked to do reports and do 
very good jobs, and then they hand off the report and they go 
on. You have not gone on, and I appreciate your continuing 
attention to this problem.
    In the final report on 9/11 Commission recommendations 
dated December 5, 2005--which is about a little over 4 years of 
experience after the 9/11 incident--you all evaluated the 
creation of the FBI National Security Workforce and graded it 
at that point at a C. How would you grade it today?
    Governor Kean. I think I'd keep it about there, but I 
don't--you may disagree.
    Mr. Hamilton. Tom and I have steered away from grades since 
that time.
    I think it's fair to say progress has been made, but the 
general comment here has been it's been too slow. In one area 
that we have had a very special interest in--and that's weapons 
of mass destruction--it just seems to me that the FBI has not 
understood the consequences of that threat sufficiently, and 
they've handled it on a kind of business-as-usual basis when we 
think that it ought to be a very urgent priority.
    I would not give them very good grades. I wouldn't even 
give them a C at this point on weapons of mass destruction. 
They do have a National Security Branch. That's also a work in 
progress. There is a lot more attention to this surely, than 
there was several years back.
    I guess my feeling is that this is an area where I shift 
the responsibility back to you. Very diligent oversight is 
necessary to see how effective that really is.
    I'll tell you what bothers me, Senator. If you talk, as I'm 
sure you have, to the FBI, they'll show you a lot of charts and 
a lot of boxes, and they'll tell you about the budgeting and 
all the rest of it. And I don't have any doubt about their good 
intentions. A lot of good conceptual work has taken place.
    But what really hangs in my mind is whether it'll work. And 
will it be implemented effectively? And that's a very tough 
thing to make a judgment about, I believe. The only way I 
really know to test the effectiveness of all of these fancy 
charts is through what the military calls exercises, practice.
    Senator Whitehouse. War gaming.
    Mr. Hamilton. Absolutely. And I think the FBI needs to do a 
lot more of that in order to persuade me, at least, that those 
charts mean something.
    Senator Whitehouse. On the question of congressional 
oversight, you know, we can sort of peek over people's 
shoulders and be an eternal scold. But unless we're focusing in 
on where the problem really lies, it's not as helpful as it 
could be.
    And I look at the situation--you know you said in your 
report, unless there's improvement in a reasonable period of 
time, Congress will have to look at alternatives. And the 
threat of having this taken away is a fairly serious 
administrative and bureaucratic threat.
    The whole question of terrorism and weapons of mass 
destruction is a critical issue facing our country. These are 
issues that, within the executive branch, you could probably 
say they transfix the President and the Vice President. There 
is no lack of White House attention to them. Significant 
resources have been shifted. And yet, you know, what gives?
    We can talk about the analyst track not being a successful 
track. We can talk about all the turnover at the very top and 
why there should be seven people in 5 or 6 years. But those 
strike me as symptoms of something else, and it's trying to put 
my finger on what that something else is that is bedeviling me 
here as I listen to this.
    Mr. Hamilton. Well, let me just mention one thing that 
puzzles me. Why can't we detect nuclear materials? That was a 
problem long before 9/11. That's been a problem for decades. 
And we have not yet developed in this country the ability to 
detect nuclear materials in containers and all the other ways 
it can get into the country.
    A lot of research has gone into it, and I understand some 
progress has been made. But we're a long, long way from being 
able to give ourselves a high percentage of assurance that all 
of the things in containers that come into this country are 
free of nuclear materials. And of course, what's worrisome here 
is that the Usama bin Ladin/al-Qa'ida group has made it very 
clear this is one of their high priorities, to get nuclear 
bombs into this country.
    So I'm puzzled, with all of this genius we have in the 
country, that we haven't been able to solve that problem easily 
in the last decade.
    Senator Whitehouse. My time has expired. I thank you both.
    Mr. Chairman.
    Chairman Rockefeller. Thank you, Senator Whitehouse.
    And now, I believe, Senator Snowe----
    Senator Snowe. Thank you, Mr. Chairman.
    Chairman Rockefeller. The ever patient Senator Snowe----
    Senator Snowe. Thank you.
    Chairman Rockefeller. [continuing.] All by herself----
    Senator Snowe. You have to have patience around here----
    Chairman Rockefeller [continuing.] Over there on the left.
    [Laughter.]
    Senator Snowe. As these two gentlemen know.
    But I want to welcome you both, Governor Kean and 
Congressman Hamilton. It's great to see you and not only 
welcome you to this Committee, but more importantly, we thank 
you for your continuing ongoing leadership and stewardship and 
being the conscience of the Nation to make sure that we 
continue to do what we need to do regarding the 9/11 
recommendations and much more. So I really want to express my 
gratitude as well to both of you.
    This clearly is a very frustrating issue because I know I'm 
familiar and have served on the Foreign Affairs Committee with 
you, Congressman Hamilton, for many years and worked on 
information-sharing, so I've certainly encountered the issues 
within the FBI in resisting just sharing of information.
    And, you know, we're in a transformational period, even 
more so today, and we're encountering the continuing ongoing 
preeminent threat, al-Qa'ida, as well as being in a war in 
Iraq. So I think there is a sense of urgency. I'm concerned 
that that sense of urgency isn't permeating the culture within 
the FBI.
    And beyond constraining the budget--which I think you're 
right; I think that certainly would get their attention--what 
else could we be doing to reverse the culture and establishing 
a certain pace of reform for the number of issues that have 
been identified here today--elevating the status of 
intelligence analysts, for example, and a number of issues that 
were highlighted by the Inspector General in his recent report?
    You know, maybe we should establish the hiring goals and 
doing all the things they've failed to do to implement the 9/11 
recommendations where they have certainly demonstrated very 
little progress on many of those issues.
    If we think it's that important, then I think that we 
should take it a step further and do what we can within the 
authorization capabilities of our Committees to address these 
issues and to force the change, because it is urgent. I mean, 
frankly, we don't know where we are in time in terms of 
experiencing another event.
    So the sooner we can get this done--and I just don't see 
anything across the board, to be honest with you, that would 
suggest that we have turned the corner within the FBI, because 
we're not elevating the status of these intelligence analysts. 
And as you mentioned, Governor Kean, they're viewed as 
glorified secretaries. They're not giving them the amount of 
counterterrorism training, from what I can understand.
    So what can we do to elevate this entire intelligence 
function within the FBI? And should we take statutory steps? 
Should we enact legislation to mandate specific changes in the 
pace of that reform in conjunction with the vision? You have to 
have the leadership. You have to have the vision. But also you 
have to have a sense of urgency in establishing the deadlines 
and the time lines by which it is accomplished as well.
    Governor Kean. Well, I think that's a good question.
    I think under the leadership of this Committee, I think you 
have to make it very clear that what's going on up to this 
point is unacceptable--just plain unacceptable. And perhaps you 
establish goals, perhaps you establish mandates, perhaps you 
say, ``We expect this to be done'' as a Committee, because 
nothing in that staff report is things that shouldn't be done. 
You know, 6 years after 9/11, a lot of them should have been 
done a long time ago.
    Again, Congressman Hamilton is right. It's not that they 
haven't done some things. I mean, Director Mueller has been 
kind enough to brief Lee Hamilton and me a number of times and 
there's been progress, but these things that we've brought up 
today aren't acceptable. A lot of them are the kinds of things 
that if not addressed could lead to another terrorist attack.
    And Lee, I think, is totally right when he talks about a 
nuclear threat. Whether or not they're taking that--the 
President of the United States on down have said that's our 
biggest danger--not maybe our biggest probability--but our 
biggest danger. If so, are they treating it as the biggest 
danger? I mean, all those kind of questions, I think, are very 
important for this Committee to ask. And maybe, as I said, some 
goals, some standards, some expectations of the Committee--by a 
certain date this should be done--maybe that would have an 
impact.
    Mr. Hamilton. As you were asking your question, Senator, I 
was thinking of several areas that I would focus on if I were 
sitting where you are. You began your comments with the phrase 
``sharing of intelligence.'' And of course you'll remember, in 
our 9/11 Commission report that was the heart of what we said 
was wrong. We didn't share intelligence, and there are all 
kinds of examples of that.
    The key point in sharing of intelligence is how this 
relationship between the FBI and the Director of National 
Intelligence works. That's where the sharing has to take place. 
If it doesn't take place there, it doesn't take place. And that 
becomes a crucial relationship. And I would want to know a lot 
more about how that relationship works. That relationship is 
not going to work unless the two principals--the DNI and the 
Director of the FBI--work and lead on the sharing of 
information.
    It has no chance of working unless those two principals are 
very heavily involved. They are both essential actors in seeing 
that information is shared among the 16 intelligence agencies 
in this Government. And they have to build that effective 
relationship. And if they don't have the right relationship 
there, it isn't going to work. So I would really focus on this 
business of sharing information.
    Number two, I would focus on the role of the analyst, 
because when we're talking about a cultural change, this is it. 
The special agent occupies a position of preeminence in the 
FBI. It's like a four-star general. The special agent in 
charge, that is a big deal in the FBI. It always has been and 
probably always should be. They're very able people and they 
have enormous responsibilities.
    But if your focus, as Tom was saying a moment ago, is going 
to be counterterrorism, that shifts the demands of the FBI--
quite bluntly--the things that would drive the FBI from the 
special agent to the analyst, because the analyst has to tell 
you where the threat is and what the nature of the threat is. 
And if that's your job--intelligence on threats, domestic 
threats, then the analyst becomes the key player.
    What that means is that the analyst cannot be secondary to 
the special agent. The analyst must be at least elevated to the 
special agent in money, in incentives, in retention and 
training and all the rest of it. So I would focus very heavily 
on that.
    I would focus heavily on the IT system. Senator Mikulski 
mentioned this a moment ago, 100 and whatever it was, $70 
million down the tubes, we all know about that. And now they 
have the Sentinel system. How is that working? Do they really 
have the capabilities in the FBI to match the commercial 
private sector? And if they don't have, why don't they have it, 
and how quick are they going to get it? I'm very impatient 
about that system because I think it really is key to better 
counterintelligence work. So those are some of the things I'd 
focus on.
    I mentioned in my opening statement the whole question of 
management. I think Director Mueller's made quite an effort to 
reach out beyond the confines of the FBI to bring good managers 
in. My recollection is they have a couple management studies 
going on right now. I'd want to know what those studies show 
and how they're going to be implemented. Those are some of the 
things I'd really focus on.
    Senator Snowe. Well, I appreciate that. And again, I 
appreciate your efforts. Maybe it's beyond the reach of one 
person. Maybe it does require more intervention on our part to 
put the intelligence analysts on the same level, on an equal 
level. Maybe we have to go further and start to address some of 
those critical issues. And I thank you both very, very much.
    Chairman Rockefeller. Thank you, Senator Snowe.
    We have an additional panel, but I want to end with this 
thought.
    I'm going to start with something that you all said in your 
report: ``Our recommendations''--and Senator Whitehouse 
mentioned this in different language--``Our recommendation to 
leave counterintelligence collection in the United States with 
the FBI still''--underlined--``depends on an assessment that 
the FBI, if it makes an all-out effort to institutionalize 
change, can do the job.''
    My overwhelming impression of the sort of bifurcation of 
wants from this hearing is that we want the FBI to do the job, 
that we have a sense that it's not doing the job, that we're 
nervous about bifurcating it, MI- 5-style, and in essence that 
we've brought ourselves to a halt so that our reports are 
negative, which shows that we're doing a kind of a negative 
oversight. It doesn't occur to me that a negative oversight's 
very helpful.
    So I'm going to introduce in this--as we close this first 
panel--a thought, and that is that we on the Intelligence 
Committee have to take responsibility, which we evidently have 
not, that if others are not going to be more aggressive about 
this, if we're going to wait for Director Mueller to come and 
tell us what's going on, the Vice Chairman and I have all kinds 
of meetings separately, but that's not necessarily for the 
whole Committee--that's a whole other subject--I think we have 
to take a special view toward the FBI, that we have to be much 
more aggressive; we have to be more inventive, we have to be 
more insistent.
    We don't have any time, but so what? Maybe neither the 
country has any time. We've got the two greatest threats, to 
me, to our security in this country, are lassitude--that is, 
what I call the homestead mentality, that we've all got our 
white picket fences and everything will work out in the end 
because in America it always does; and second, because the two 
agencies that are most responsible for the immediate lives of 
Missourians and West Virginians are the Department of Homeland 
Security and the FBI, and those are the two departments with 
which we have the greatest frustration, that have the greatest 
budget problems, and are the most, in a sense, one because of 
its complexity and the other because of its culture and 
history, are impenetrable.
    Well, it becomes, I think, our job on this Committee to 
change that, to break that. We have to become more aggressive. 
And I think that may be the way out of this very uncomfortable 
bifurcation of views. Wishing them well, saying they're doing 
some things good, reports that aren't very helpful or hopeful, 
and I think now I'm just going to shift part of that to the 
Vice Chairman and myself and we're going to do a better job. 
You just watch us.
    In the meantime, we thank you enormously for taking your 
time. Senator Whitehouse has volunteered to pay your train 
ticket----
    [Laughter.]
    Chairman Rockefeller. Which is important.
    And we really thank you very, very much. We're enormously 
proud of you. I don't know any two Americans who've done more 
for this country post-9/11 than you two have. And as Senator 
Whitehouse said, people make incredible reports; you two never 
leave us. You prick our conscience; you drive us; you question 
us just by the mere fact that you're still around. And thus you 
elicit this response from me: Thank you, gentlemen.
    Mr. Hamilton. Thank you very much.
    Governor Kean. Thank you, Mr. Chairman.
    Vice Chairman Bond. Gentlemen, I wholeheartedly concur. You 
put out a magnificent report. You come back with very 
thoughtful analysis. And you've got to catch a train, so I'll 
only say very briefly we would be happy to brief you on some 
technologies for detecting nuclear materials that you may not 
have been briefed upon.
    And second, it sounds to me, Congressman Hamilton, that you 
are suggesting that Congress mandate that the two top positions 
in the National Security Branch might rotate between agent/
analyst and analyst/agent. Is that the kind of thing you're 
saying?
    Mr. Hamilton. I just say that, as it is today, I think the 
analyst has to be elevated greatly within the structure of the 
FBI.
    Vice Chairman Bond. Thank you.
    Mr. Hamilton. At least equal to the special agent in 
charge.
    Senator Mikulski. Mr. Chairman--not for a question, just 
for a point that I'd like to say to you and the Vice Chairman 
as our dear friends and colleagues leave.
    This goes to cooperation with the appropriators to do the 
oversight necessary. I know that the 9/11 Commission 
recommended that there be a separate Committee made up of 
authorizers and appropriators on intelligence. As the Chairman 
knows, there was institutional hesitation on that.
    Well, we can do that among ourselves. My Ranking Member, 
Senator Shelby, was a former chair and vice chair of this 
Committee. And I say before our friends from 9/11 Commission 
and to you--and of course, Senator Bond is an appropriator--
that we want to work with you so that we can have this seamless 
oversight between the authorizers and the appropriators, and we 
can begin that in a matter of weeks.
    Mr. Hamilton. Senator Bond, I welcome the briefing on the 
nuclear detection, but I'm not satisfied until I see them in 
place checking containers effectively. I've heard for a long, 
long time about the research and development, and I am all for 
it. But I don't see them in place working effectively yet. Ten 
years at least--10 years at least we've been working on this 
problem. I welcome the briefing.
    Chairman Rockefeller. I thank the gentleman.
    Vice Chairman Bond. We will make you an honorary show-me 
Missourian even though you're a couple of States east, a good 
policy.
    Chairman Rockefeller. Thank you very much.
    Governor Kean. Thank you.
    Chairman Rockefeller. Both of you, thank you.
    Could I call, please, the second panel, Mr. William Hulon 
and Philip Mudd of the FBI's National Security Branch to come 
forward. Mr. Hulon, would you care to give the opening 
statement please.

  STATEMENT OF WILLIE T. HULON, EXECUTIVE ASSISTANT DIRECTOR, 
  NATIONAL SECURITY BRANCH, FEDERAL BUREAU OF INVESTIGATION, 
   ACCOMPANIED BY PHILIP MUDD, ASSOCIATE EXECUTIVE ASSISTANT 
     DIRECTOR, NATIONAL SECURITY BRANCH, FEDERAL BUREAU OF 
                         INVESTIGATION

    Mr. Hulon. Yes, sir. Thank you.
    Chairman Rockefeller. And thank you very much both of you 
for your service and for your presence and for your patience.
    Mr. Hulon. Sure. Good afternoon, Mr. Chairman, Vice 
Chairman Bond, and Members of the Committee. I am pleased to be 
here today to discuss the FBI's progress in strengthening its 
intelligence capabilities to protect our Nation.
    Joining me are National Security Branch Associate Executive 
Assistant Director Philip Mudd and Directorate of Intelligence 
Assistant Director Wayne Murphy. Mr. Mudd, a career CIA 
analyst, and Mr. Murphy, a career NSA analyst, are key players 
on the National Security Branch management team. They both have 
extensive intelligence community experience.
    Since 9/11 the FBI has set about transforming itself into a 
national security organization. Over the past 6 years, we have 
made steady progress toward this goal. During a time of 
unprecedented and revolutionary change for the FBI, we have 
expanded our mission, overhauled our intelligence programs and 
capabilities, improved our information sharing, and enhanced 
training opportunities for our employees.
    Our intelligence capabilities have evolved significantly 
since early 2002, when we began developing a more robust 
intelligence program. As part of these efforts, and in response 
to the recommendation of the 9/11 and WMD Commissions and 
others, we created a National Security Branch which integrates 
the FBI's counterterrorism, counterintelligence, intelligence, 
and weapons of mass destruction programs. The mission of the 
National Security Branch is to lead and coordinate intelligence 
efforts that drive actions to protect the United States.
    In addition, over the past year the FBI has developed a 
strategic plan to enhance the performance of our national 
security mission. This plan has been developed using the 
balanced scorecard strategic management system, a tool employed 
by a number of private sector corporations, to align budget, 
plans and strategy across the organization. At the same time, 
we continue to receive input from a number of bodies who are 
interested in the FBI's transformation efforts, including the 
President's Foreign Intelligence Advisory Board, which has also 
examined our efforts to enhance our intelligence program and 
recommended ways to accelerate our efforts.
    In conjunction with their recommendation, we began working 
with the consulting firm of McKinsey and Company. As a result 
of initiatives identified in our strategic planning efforts and 
through our work with McKinsey, we have identified a number of 
areas where we are able to accelerate our progress as an 
organization. In order to drive future progress, the Director 
has assembled a strategic execution team of field and 
headquarters personnel. The team will focus on accelerating the 
progress on many of the changes already under way, including 
the implementation of the intelligence program at FBI 
headquarters and in the field, and enhancing our recruiting, 
training, and career development across the FBI.
    The FBI's Counterterrorism Division within the National 
Security Branch was at the forefront of the FBI's strategic 
planning efforts. We continue to implement a program to 
translate the FBI's mission of deterring, detecting, and 
disrupting national security threats and criminal activity into 
action. Nearly 2 years ago the Counterterrorism Division began 
using balanced scorecard. It has proven to be a helpful 
management tool and, as I mentioned, has now been expanded to 
use Bureau-wide. Like many private and public sector 
organizations, we use this scorecard to align day-to-day 
operations with broader strategies, to get feedback, and to 
measure our progress as we continue to implement our 
counterterrorism strategy.
    In a major shift since 9/11, our counterterrorism strategy 
now weighs the benefits of gathering intelligence to dismount 
terrorist networks against the value of prosecuting individual 
terrorists, and our revised counterintelligence strategy calls 
for a higher level of performance by focusing not simply on 
identifying foreign intelligence collection networks but on 
reducing foreign intelligence collection opportunities, and 
doing so nationwide.
    In keeping with the strategic planning focus across the 
organization we are currently adopting a balanced scorecard 
approach to link strategy with operations across the National 
Security Branch. As a result of this approach, we will further 
enhance our intelligence capabilities. A key part of our 
success is understanding our threat environment. To ensure that 
we are collecting intelligence that responds to national 
priorities, our field intelligence groups are looking beyond 
cases and using intelligence to develop greater awareness of 
threats in their domain.
    To enhance our knowledge of our domain, the FBI is also 
implementing a desk officer program. This program will provide 
an integrated collaborative network that maintains the FBI's 
understanding of current threats as they evolve. We are also 
enhancing our confidential human source program by updating 
guidelines on human source policy and human source validation. 
Through these efforts we are able to direct our valuable 
resources to combat the critical threats and vulnerabilities we 
face.
    Among the key post-9/11 changes, we have enhanced our 
information sharing capabilities to ensure the intelligence we 
collect is shared with our law enforcement and intelligence 
partners. This is crucial to fulfilling the FBI's mission. We 
have expanded our participation in State and local intelligence 
fusion centers nationwide, and recognize these centers as being 
fundamental in facilitating the sharing of homeland security 
and criminal-related information and intelligence.
    We are also enhancing our training initiatives. For 
example, we refined our basic analytical training course with a 
focus on critical thinking, writing and briefing. Working with 
our intelligence community partners we also developed an 8-week 
course that offers agents a variety of techniques for 
identifying, developing, and recruiting human sources. We have 
also modified new agents training to provide more than 100 
additional hours of national security-related training.
    In addition, we have begun the first iteration of a 
specialized counterterrorism course known as the 
Counterterrorism Stage Two Academy, which is mandatory training 
for agents who are designated to the counterterrorism career 
path. This course, which supplements the counterterrorism 
curriculum provided in new agents training, focuses on laws, 
policies, and competencies specific to the counterterrorism 
program.
    In conclusion, Mr. Chairman, although we recognize that we 
have much work ahead as we continue to adapt to ever changing 
threats, we look back on the past 6 years as a time of 
remarkable accomplishment for the FBI. We have implemented 
revolutionary changes post-9/11 while accelerating the tempo of 
our counterterrorism operations. Today the FBI is a stronger 
organization, combining greater capabilities with our 
longstanding commitment to the security of the United States 
while upholding the Constitution and protecting civil 
liberties.
    Thank you for your continued support of the FBI's national 
security programs. I'll be happy to answer any questions.
    [The prepared statement of Mr. Hulon follows:]
 Prepared Statement of Willie T. Hulon, Executive Assistant Director, 
       National Security Branch, Federal Bureau of Investigation
    Good afternoon Mr. Chairman, Vice Chairman Bond, and Members of the 
Committee. I am pleased to be here today to discuss the FBI's progress 
in strengthening its intelligence capabilities to protect our homeland.
    After the attacks of September 11, 2001, the FBI's priorities 
shifted as we charted a new course, with national security at the 
forefront of our mission to protect America. The intervening 6 years 
have seen significant changes at the FBI. Although we recognize that 
there is much more work to be done, we have made remarkable progress. 
The FBI has been engaged in a continuous effort to build its 
intelligence program. We must continue to evolve as the threat evolves. 
Today, the FBI is a stronger organization, combining greater 
capabilities with the longstanding commitment to the security of the 
United States, while upholding the Constitution and protecting civil 
liberties.
    Chief among the changes has been the enhancement of an intelligence 
program, which we began implementing in early 2002. In 2003, we created 
an Office of Intelligence, which was charged with creating a single 
program to manage all FBI intelligence production activities. We also 
expanded our analytic, reporting, and intelligence capabilities.
    Since that time, the 9/11 Commission, the WMD Commission, and the 
President's Foreign Intelligence Advisory Board (PFIAB) have offered 
additional recommendations and guidance on how to further strengthen 
the FBI's intelligence program. In response, in February 2005 the FBI 
officially established the Directorate of Intelligence as a dedicated 
and integrated intelligence service within the FBI. In September 2005, 
we implemented a Presidential directive based on the WMD Commission's 
recommendation to establish a ``National Security Service'' that 
integrates the FBI's national security programs under the leadership of 
an Executive Assistant Director. The National Security Branch (NSB) 
comprises the FBI's Counterterrorism Division (CTD), 
Counterintelligence Division (CD), the Directorate of Intelligence 
(DI), and--as of July 2006--the Weapons of Mass Destruction (WMD) 
Directorate. More recently, we have been working with the PFIAB to 
further our efforts to build our intelligence program. In a relatively 
short period of time, the FBI has made significant progress in 
implementing the recommendations of the 9/11 Commission, the Weapons of 
Mass Destruction Commission, and the PFIAB while continuing to meet the 
numerous other expectations placed upon the Bureau.
    With these structures in place, we are working to implement a 
Balanced Scorecard, a management system that enables organizations to 
clarify their vision and strategy and translate them into actions. We 
began using this strategy management system in the Counterterrorism 
Division approximately 2 years ago and it has proven to be a helpful 
management tool. The Director has implemented the approach Bureau wide. 
Like many others in the private and public sectors, we will use the 
Balanced Scorecard to align day-to-day operations with broader 
strategies, to get feedback, and to measure our progress as we move 
forward in our evolution as a national security organization.
              strengthening our intelligence capabilities
    The NSB is currently adopting this approach to link strategy with 
operations and further enhance our intelligence capabilities. The NSB's 
mission is to lead and coordinate intelligence efforts that drive 
actions to protect the United States. Our goals are to develop a 
comprehensive understanding of the threats and penetrate national and 
transnational networks that have a desire and capability to harm us. 
Such networks include terrorist organizations, foreign intelligence 
services, those that seek to proliferate weapons of mass destruction, 
and criminal enterprises.
    In order to be successful, we must understand the threat, continue 
to integrate our intelligence and law enforcement capabilities in every 
FBI operational program, and continue to expand our contribution to the 
intelligence community knowledge base.
    A key development in the evolution of the FBI's intelligence 
program was the establishment of Field Intelligence Groups (FIGs) in 
each of the FBI's 56 field offices. The FIGs manage and coordinate the 
FBI's intelligence collection and reporting efforts in the field. From 
an information-sharing perspective, the FIGs are the FBI's primary 
component for receiving and disseminating information. They complement 
the Joint Terrorism Task Forces (JTTFs) and other squads and task 
forces. The FIGs play a major role in ensuring that we share what we 
know with others in the intelligence community and our Federal, state, 
local, and tribal law enforcement partners.
                             desk officers
    As part of the FBI's efforts to enhance our understanding of the 
national threat picture, we are implementing a Desk Officer Program. 
This program will consist of an integrated network of Special Agent and 
Intelligence Analyst teams assigned to national, division, regional, 
and field desks. The FBI's Desk Officers will assess and adjust 
collection efforts; identify collection gaps; target collection and 
source development against these gaps so they are consistent with 
priority national intelligence requirements; satisfy internal 
requirements; collaborate with partners; and convert and broadly 
disseminate the consolidated results, leading to enhanced knowledge of 
the threat environment.
    The FBI's desk structure is based on country and topical 
priorities, as set forth in the National Intelligence Priorities 
Framework and internal priorities. The Desk Officer Program will focus 
not only on the management and advancement of existing cases but also 
on maintaining a networked and coordinated national collection effort. 
Over time, this program will enhance our confidence that we understand 
and have penetrated terrorist, criminal, cyber, and foreign 
intelligence threats.
                           human intelligence
    Another critical element of our enhanced intelligence capability is 
our Confidential Human Source Program. The FBI, in collaboration with 
the Department of Justice, is completing a Confidential Human Source 
Re-engineering Project to enhance and improve the administration and 
operation of the FBI's Human Source Program.
    As part of the Re-Engineering Project, the FBI and DOJ have worked 
to update guidelines on human source policy and human source 
validation. The ultimate goals of the Re-engineering Project are to 
streamline, consolidate, and update all human source guidelines; 
develop a ``one source'' concept; and strengthen the validation of 
human sources.
    The release of the new Attorney General's Guidelines Regarding the 
Use of FBI Confidential Human Sources signed on December 13, 2006, 
marked a pivotal milestone to accomplish the one-source concept. 
Complementing these guidelines are two manuals: the Confidential Human 
Source Policy Manual (Policy Manual) and the Confidential Human Source 
Validation Standards Manual (Validation Manual). The Policy Manual 
governs source administration including compliance with the AG 
Guidelines, while the Validation Manual standardizes the FBI's source 
validation review process. These manuals, along with the new AG 
Guidelines, took effect on June 13, 2007.
                 information sharing and collaboration
    Among the fundamental post-9/11 changes, the FBI has enhanced its 
information sharing capabilities to ensure the intelligence we collect 
is disseminated to our law enforcement and intelligence community 
partners. Consistent with the Intelligence Reform and Terrorism 
Prevention Act (IRTPA), the FBI actively participates in the 
Information Sharing Environment (ISE). We have a senior-level manager 
detailed to the Office of the ISE Program Manager in the Office of the 
DNI, have assigned FBI personnel to numerous ISE working groups, and 
have designated the Assistant Director for the FBI Intelligence 
Directorate as the FBI member of the Presidentially established 
Information Sharing Council (ISC) and the White House's Information 
Sharing Policy Coordination Committee.
                 dissemination of intelligence products
    The FBI also has undertaken a number of activities focused on 
enhancing our intelligence production and dissemination. These 
initiatives include new policy, procedures, standards, training, and 
oversight to optimize our contribution to the information needs of 
policymakers, the intelligence community and our state, local, tribal, 
and private sector partners. We issued policy to standardize and 
streamline the processing of raw and finished intelligence reports, 
gain more timely and consistent reporting, and allow for the direct 
release of certain categories of reporting without FBI Headquarters' 
review; established new reporting vehicles to meet niche customer 
markets; and began instituting metrics to allow us to measure 
performance across a range of issues relating to the dissemination of 
intelligence.
    Through these efforts, we have strengthened the FBI's intelligence 
presence within the intelligence and law enforcement communities by 
sharing Intelligence Information Reports (IIRs), Intelligence 
Assessments, Intelligence Bulletins, and related intelligence 
information on platforms routinely used by our law enforcement and 
intelligence community partners. These platforms include the Joint 
Worldwide Intelligence Communications System (JWICS), Secure Internet 
Router Protocol Network (SIPRNet) and Law Enforcement Online (LEO), as 
well as on the FBI Intranet.
                             fusion centers
    Information sharing with state, local, and tribal law enforcement 
is crucial to fulfilling the FBI's intelligence mission. The vast 
jurisdiction of state, local, and tribal officers brings invaluable 
access to millions of people and resources, which can help protect the 
Nation and its citizens. The FBI has expanded its efforts to share raw 
intelligence reporting and analysis with state, local, and tribal 
entities on LEO and RISS. The FBI also produces joint bulletins with 
the Department of Homeland Security (DHS) for our law enforcement 
partners on threat issues.
    State Fusion Centers and other multi-agency intelligence centers 
have become a focal point of information exchange and relationship 
building linked to many key issues important to the FBI mission. The 
FBI recognizes that fusion centers are fundamental in facilitating the 
sharing of homeland security and criminal-related information and 
intelligence and considers our participation in fusion centers an 
extension of our traditionally strong working relationship with our 
state, local, tribal, and private sector partners. In June 2006, we 
directed all field offices to assign personnel to the leading fusion 
center in each state or field division territory and to participate in 
other centers as resources permit.
                        secure work environment
    The FBI's expanded role in intelligence operations has 
significantly increased the requirement to build Secure Work 
Environment (SWE) facilities. The goal is to provide the physical 
infrastructure and IT connectivity to enable FBI personnel to execute 
their mission of protecting national security. We also are working to 
provide Sensitive Compartmented Information Operational Network (SCION) 
access as quickly as possible to our prioritized locations so we have a 
baseline level of connectivity in the field offices and resident 
agencies most involved in national security investigations.
                        training and development
    To prepare our national security workforce to work collaboratively 
against national security threats to the United States, we continue to 
strengthen our training. As part of these efforts, New Agent Training 
has been modified to provide more than 100 additional hours of training 
in all national security-related areas. This includes approximately 45 
hours in counterterrorism training, and additional instruction in 
counterintelligence, counterproliferation, and weapons of mass 
destruction. The additional training hours are designed to add to the 
flexibility and adaptability of all Special Agents to enable them to 
work the varied programs required of them.
    We have undertaken a comprehensive restructuring of our approach to 
intelligence training. In addition to augmenting New Agents training, 
in the past 8 months we have developed and are delivering a course 
targeting FBI Reports Officers (ROs) who play a central role in the 
intelligence cycle. We are on an aggressive schedule that will train 
every RO by the end of this calendar year. We piloted and have run 
multiple iterations of a course for managers of Intelligence Analysts 
that is designed to give supervisors, many of whom are Special Agents, 
the skills and awareness to optimize their role in the intelligence 
cycle.
    Working with the DNI and the Kent School at CIA, we developed and 
taught the first iteration of a 10-week Intelligence Basic Course (IBC) 
that provided 24 analysts foundational skills in critical thinking, 
writing, and speaking--core competencies of the analytic art. This 
month, we launched the second iteration of IBC. In addition to an 
intermediate version of this course, we are developing a shorter field 
version that we plan to deploy in early 2008. This field version is 
designed as a ``refresher course'' for analysts to maintain their 
critical skills.
    National training seminars reaching every field office were held to 
address Field Intelligence Operations, Foreign Intelligence Collection, 
and Human Source Management and Validation. Beginning last summer, the 
NSB leadership began a series of small group workshops for Assistant 
Directors-in-Charge (ADICs) and Special Agents-in-Charge (SACs) focused 
exclusively on decisionmaking and managing field intelligence 
operations. We continue our successful partnership with the Kellogg 
School at Northwestern University to train senior and mid-level 
managers in leading the change that comes with our intelligence 
responsibilities.
    In September 2006, we launched a new Human Source Targeting and 
Development course, which introduces agents to a systematic approach to 
identifying, developing, and recruiting human sources. The course 
incorporates relevant elements from tradecraft used by other 
intelligence community agencies into a framework for a curriculum that 
is tailored to the FBI's unique jurisdictional authorities and mission.
                               conclusion
    The FBI has a mandate from the President, Congress, the Attorney 
General, and the DNI to protect national security by producing 
intelligence in support of our investigative mission, national 
intelligence priorities, and the needs of other customers.
    The FBI has always used intelligence to solve cases; however, 
today, we count on our agents and analysts working hand-in-hand with 
colleagues around the country and around the world to collectively 
piece together information about multiple, interrelated issues. With 
the authority and guidance provided by the IRTPA and other directives 
and recommendations, the FBI has implemented significant changes to 
enhance our ability to counter today's most critical threats. We look 
forward to continuing to work with the committee to strengthen our 
capabilities.
    Thank you for your continued support and interest in the FBI's 
national security program. I would be happy to answer any questions you 
may have.

    Chairman Rockefeller. Thank you, sir.
    Phil Mudd, did you have a statement you wanted to make?
    Mr. Mudd. No, thank you.
    Chairman Rockefeller. No thank you? I was looking forward 
to it.
    Mr. Mudd. Yes, sir, but I wasn't.
    [Laughter.]
    Chairman Rockefeller. All right. One down for Rockefeller, 
one up for Mudd.
    [Laughter.]
    Chairman Rockefeller. You heard, I believe, the last panel. 
You were inside or outside?
    Mr. Hulon. We were outside, sir.
    Chairman Rockefeller. Why?
    Mr. Hulon. That's where we were.
    Mr. Mudd. We did have a TV access to the panel.
    Chairman Rockefeller. Uh-huh. OK.
    I've got to say, Mr. Hulon, I have every reason to respect 
you and no reason not to respect you. But quite honestly, in 
listening to your testimony, I had the feeling that came out of 
OMB. In other words, I had the feeling that everything was on 
the uprise and there may be problems and yes, there is much 
work to do. What's going on in my head is yes, there's much 
work to do, but most of what was going on in the last panel was 
what it is that is not happening, and I really feel that I, at 
least from my point of view, I need to make you deal with that.
    You know, this has been repeated from before, but the 
Committee learned that in 2007 only 60 percent of the 
counterterrorism special supervisory agent positions were 
filled. In the headquarters section that covers al-Qa'ida-
related cases, more than 23 percent of the supervisory agent 
positions were vacant. Stunning to me. That's stunning to me.
    On the one hand, Peace Corps, Vista, all of those things 
shooting through the sky in quality and applications. On the 
other hand, CIA, DIA, et cetera, shooting up in numbers of 
applications and quality of applications.
    I don't know where FBI stands. When you say a position is 
vacant, I'm dumbfounded. This is protection of the nation. I 
just I can't understand it. I can't assimilate it. It may be 
because I don't understand Washington well enough. On the other 
hand, I've been here a long time.
    So you've attempted, you said, to address headquarters 
vacancies by offering these TDYs--temporary duty assignments--
$27,000 bonuses--but they have failed. Well, look, $27,000 is 
more than the total average income of the average West Virginia 
family. So we got a whole lot of folks who would take that in a 
shot. They might not be, you know, yes or no--some of them 
qualified, some of them not.
    But what is it that the FBI has conducted, looked at, to 
understand why the organization has such difficulty in 
recruiting special agents to headquarters? And what new 
initiatives are not only under way but heading toward fruition 
now some 7 years later? I'm puzzled by your testimony.
    Mr. Hulon. Sir, let me respond to that please. I totally 
agree with you in regards to the vacancies at FBI headquarters. 
They need to be filled. When we talk about the 23-percent 
vacancy rate, that is for headquarters supervisors within the 
FBI in the counterterrorism division at headquarters. The 
problem that we're facing is the attraction of agents to come 
to the Washington, DC area. Part of that is in due to the cost 
of living here, and that's why we added those incentives that 
weres mentioned in my written testimony.
    But what we are doing in the FBI now is looking at a long-
term solution that is going to bring about more long-term 
cultural change in the FBI, because what we are contemplating 
doing--and it's already in process--is that we're going to make 
duty assignments at headquarters similar to assignments at our 
larger field office where agents, as a part of their career 
development, would rotate into nonsupervisory operation 
divisions in positions at headquarters, which is where we have 
some of the vacancies in the counterterrorism division.
    So we do have a long-term solution. I don't want to make 
excuses for our inability to fill those spots. We have tried 
various short- term solutions that were not successful, so 
we're going to have to take a more aggressive approach to fill 
those positions and that is one of the strategy positions that 
we have ongoing with Director Mueller today.
    Chairman Rockefeller. OK. Vice Chairman Christopher Bond.
    Vice Chairman Bond. Thank you, Mr. Chairman. Reflecting on 
the Department of Defense where the Chairman and the Vice 
Chairman of the Joint Chiefs of Staff come from different 
military services, one might view agents and analysts in a 
similar fashion.
    What would be the impact if Congress required that the 
number one and two positions within the National Security 
Branch rotate between agents and analysts? Would that give 
analysts a greater impact or do you feel they don't need it?
    Mr. Hulon. I think right now we are addressing that in the 
FBI and it's not a quick overnight change. As you can see now, 
even with the National Security Branch, I'm an FBI special 
agent with 24 years of service. The associate EAD, the number 
two position in the National Security Branch, is actually held 
right now by an analyst, my colleague, Philip Mudd, who has 
over 20 years of service to the CIA as an analyst. So we are 
actually moving toward that and----
    Vice Chairman Bond. So you're there where we would----
    Mr. Hulon. We're actually there now at the National 
Security Branch executive level. We also have analysts in 
management positions in the FBI. One of our deputy assistant 
directors who's in charge of counterterrorism analysis is an 
analyst. Actually we recruited him from the CIA shortly after 
9/11. So we are moving in that direction, and we also have 
analysts in supervisory positions in both the FBI headquarters 
and also the field.
    Vice Chairman Bond. Well, Mr. Mudd, I might turn to you and 
see maybe you can offer a different view than the previous 
panel about the lack of recognition, award, rewards for 
analysts. Do you feel that you're getting the kind of analysts, 
talent, and opportunities and career path that are needed to 
make the special National Security Branch effective?
    Mr. Mudd. I managed analysts and operators at the CIA for 
years. I think if you asked analysts at the Bureau who've been 
there, let's say, 3 or 4 years, they would say we progressed 
over that time not only in terms of their professional 
development, but also in terms of the FBI culture and 
acceptance of analysis.
    At the same time, I'm not here to snow you. If you asked 
analysts--myself as an analyst--whether FBI analysts have the 
same training opportunities and a 50-year history that, say, 
CIA has in analysis, I can't tell you that's true. So we've 
progressed from where we were a few years ago, but we have a 
ways to go in terms of understanding the interaction between 
operations and analysis and ensuring that we offer long-term 
careers to the new people we're bringing in. They're very 
talented.
    Vice Chairman Bond. I've heard some different views 
expressed on this question and we've had some concerns about 
it. I would--well, first of all, can you assure me that your 
testimony was not written by OMB or significantly changed by 
OMB?
    Mr. Hulon. Yes, sir, I can.
    Vice Chairman Bond. OK. Now, number two, giving us your 
best unvarnished view, what is the current relationship, and 
how productive is it, between the FBI and the DNI?
    Mr. Hulon. Actually, in looking at the relationship between 
the FBI and the DNI, I think it's one that's still maturing. 
We've had a turnover at the DNI with the leadership of the DNI. 
But as far as on a day-to-day operational basis, we have a lot 
of interaction but we have not been as plugged in as I think we 
could be. It's a matter of the DNI and the rest of the 
intelligence community having a better understanding of the 
FBI, our operations and the guidelines we operate under, as 
well as us having a better understanding of the DNI and where 
they're going with the strategy there. But it's one----
    Vice Chairman Bond. As you describe it, then, that's not 
something that you need legislation to fix. Mr. Mudd has come 
over from the CIA and there used to be, unfortunately, a total 
gulf between the two. Is this something that you can fix and 
without our getting messed up in it, and how long is it going 
to take you to finish doing the job?
    Mr. Hulon. You know, that's a good question, sir, and I 
can't really give you a definitive answer on that. I do think 
that with everyone focused on the mission, and of course the 
mission is critical, we will be working to a point to where 
it's actually working much better and we have better 
connectivity and support of from the DNI and also supporting 
the DNI's initiatives and goals and so forth to support the 
mission.
    I'm not sure that additional legislation will help. I think 
it's just going to be a matter of us maturing the relationship 
to get to where we need to get.
    Vice Chairman Bond. Any final thoughts, Mr. Mudd, on that?
    Mr. Mudd. Just a quick one. There is a substantial 
difference, I think it's worth understanding, between CIA's 
relationship with the DNI and FBI. The CIA has decades of 
tradition building these kinds of intelligence programs. We 
have an advantage, I think, in terms of growing a relationship 
and a partnership with the DNI's office over the next decade. 
As we think about how we grow analytic training or how we do 
reporting of intelligence information and the DNI grows in the 
same areas, we're asking questions like, are we meeting your 
standards for training? Are we meeting your standards for 
reporting? And, by contrast, CIA is coming at this with, say, 
50 or 60 years of doing this and they might not need the same, 
I think, help that we need, and we still need a lot of help.
    Vice Chairman Bond. Thank you very much, gentlemen.
    Chairman Rockefeller. Senator Mikulski.
    Senator Mikulski. Mr. Chairman.
    Mr. Hulon, Mr. Mudd, good to see you again. I'm here now in 
my hat as a authorizer, not an appropriator, but I too want to 
join the Chairman for thanking you for your extensive service 
and sacrifice and to all who are working at the FBI so that we 
have a safer country, whether it's in the streets and 
neighborhoods, or around the world.
    Mr. Chairman, one of the things that I believe is that we, 
Congress, does not fully understand what we have created with 
the National Security Bureau, and, therefore, don't appreciate 
what's been done. This is why this hearing is so good.
    And I would encourage the Committee to go out to the 
National Counterterrorism Center--the NCTC--and see how the FBI 
is integrated there, which picks up--I know the Vice Chairman's 
interested in the DNI, but we're interested in the operation. 
The other is to also, when traveling, to visit our embassies. 
I've been particularly impressed at the way the FBI's been 
integrating--the London example is a very good answer--and then 
also in the field offices. Again, pledging the support between 
the appropriators and authorizers, if we maybe wanted to do a 
joint visit to the NCTC it might be an interesting phenomena.
    But, having said that, let me go on though to something 
that's been of great interest to me which is the analyst 
program and is the subject of so much focus. I'd like to refer 
in my questions to the IG report on workforce hiring, training, 
and retention of analysts that was issued in April 2007. And 
they give you a lot of credit--you, the FBI and the NSB--for 
improvements in hiring, training, and utilization of them, but 
they raise some very important flashing yellow lights, and I'd 
like to go over them.
    Number one, it said you didn't meet your hiring goals. I 
know the Ranking Member has raised it. But what was troubling 
to me is that also they point out that the time to hire an 
analyst has gone, from 2004 to 2006, from 19 weeks to 31 weeks. 
I'd like to know why that's so, rather than, with more 
experience in doing this, it's not less time.
    Number two, that there is concern about the professional 
divide between special agents and analysts that can be potholes 
or speed bumps into collaboration. And number four, the 
importance of training--that there does not seem to be a 
satisfactory training program for the analyst. And last, but 
not at all least, their utilization--that in some instances, 
they're still feeling like they're Orphan Annies in some 
offices doing--I don't mean to say clerical work, but more 
administrative functions.
    So one, shortening the hiring time; number two, the 
integration with special agents; number three, utilizing them 
in the field offices so once we get them we do that, and then 
what do you want to do to hold onto them once you get them, 
because they say after 5 years out of there, going to the 
private sector, big bucks, less stress.
    Mr. Hulon. OK. Thank you, Senator. Let me start off first. 
If it's OK with you, I'll take a couple of them out of order.
    Senator Mikulski. Whatever way. That's why I went through 
them. This is really to hear from you on how we can help you be 
you.
    Mr. Hulon. OK. Actually, when you talk about the 
utilization of the analysts in the field offices, we have 
really focused on making sure that we have the analysts focused 
on their analytical duties. As a matter of fact, just last 
summer we went out with another mandate to ensure that analysts 
did not receive collateral duties that would take them away 
from their critical analytical work. So we sent that out to the 
field.
    We directed the special agents in charge to make sure that 
they adhered to that. We have gotten pretty good responses back 
from the field as far as that being done. However, we do keep 
in mind that there will be situations where there will be a 
need for crises or critical situations to divert resources and 
we do understand that that could in fact happen. But we have 
addressed a lot of the stories that you might hear about 
analysts taking out the trash or answering the phone or doing 
complaint duty or sitting in the reception area. So we have 
addressed that so we are really focusing those valuable 
resources on what they were hired to do.
    In regards to the agent/analyst divide, we hear a lot about 
that, and I think some of that is anecdotal. Some of it's 
historical discussions going back to the old stories about the 
agent/analyst or support divide. What we have done recently, 
within the last few years, and we've accelerated that, is that 
we're integrating the analytical workforce more with the agent 
workforce. We have agents and analysts working together on the 
FIGs--the field intelligence groups--in the field offices. We 
also have analysts embedded on the squads--the operational 
squads in the field offices--who are doing the same thing at 
headquarters in the Counterterrorism and Counterintelligence 
divisions where we have teams of analysts and agents working 
together. So, of course, the job----
    Senator Mikulski. Can I jump in here with this?
    Mr. Hulon. Yes, ma'am.
    Senator Mikulski. As people go through Quantico and then 
their, I'll call it continuing ed----
    Mr. Hulon. Right.
    Senator Mikulski. For the agents, do you provide training 
to all special agents on the role and capabilities of analysts 
so that they get it when they're starting and they're reminded 
of it as they get their courses to upgrade their skills?
    Mr. Hulon. Yes, ma'am. That has not been something that has 
been historically done. That's something that we're integrating 
into our new training strategy.
    Senator Mikulski. So you do that now?
    Mr. Hulon. We're starting to do that now with----
    Senator Mikulski. When did you start?
    Mr. Hulon. Actually, last summer we enhanced our new agents 
training program to add 100 hours of national security 
training. In that we enhanced our intelligence training that 
actually talks about some of the assets that the analysts bring 
to the table.
    We also have recently implemented a new training program 
for supervisors of analysts to make sure that there are 
supervisors because we have some situations where special 
agents are supervising analysts and have the analysts working 
with them. So we actually have a training course to make sure 
that the agents start to understand and appreciate what the 
analysts are doing. So that is something that we're integrating 
into the numerous projects and priorities that we have.
    Senator Mikulski. Can you talk about why it took so long to 
do that? That's number one. And number two, hiring goals is 
one, but to move them through the process? If it takes 30 weeks 
to hire an analyst, this is a new generation. They could be 
moving, going to the private sector, to academia. You know, 
you're in a war for talent. You want to talk about why it takes 
30 weeks, and do you intend to shorten that? Why does it take 
30 weeks?
    Mr. Hulon. I'm not sure where the IG--what they used when 
they came up with their numbers. Some of it could have been the 
environment when they were doing their review. We've had some 
situations where we've had to slow down our hiring because of 
budget constraints, so we've gone through, experienced some of 
that. So I'm not sure if that's actually factored into their 
assessment.
    And actually, I can ask Wayne Murphy, the Assistant 
Director for the Directorate of Intelligence, if he might be 
able to shed a little light on that, because I know he's been 
focusing on that.
    Senator Mikulski. Does it take 30 weeks to hire an analyst?
    Mr. Mudd. If I could make one quick point on that, and that 
is, in the intelligence community, when you're hiring people at 
the top secret level or the highest security clearance you can 
get, I'm not sure about the 31-week number. My experience at 
CIA is that it takes substantially longer than that because of 
the process, which is labor- intensive, of getting a security 
clearance. So it's not the hiring process; it's the security 
process.
    One more point on this. You talk about a war for talent 
with the private sector, which is true. We have the beauty of 
offering, frankly, a better mission than the private sector 
offers, which is why we get such good applicants. But when you 
look at an application process for an analyst, if you start in 
the fall of the senior year of a student, you have time to work 
through that year. In other words, you're not asking that 
student, oftentimes, to forgo another job opportunity. That 
person is going through his academic year as you do the 
security clearance process.
    Senator Mikulski. Mr. Chairman, I note that my time has 
expired. I'd like to just comment on one item that Mr. Hulon 
said when I pressed him on the 30 weeks and he said budget 
constraints.
    Do you remember when we did the CR going from 2006 to 2007, 
right after the election? I'll tell you what happened. They did 
a CR and they left out the FBI. And we had to fight on that. 
And this had--because it was both the special agents--it was a 
variety of personnel.
    But it goes to what my point is, which is the Congress 
itself does not embrace the idea that we've created a national 
security branch and that when we press for the passage of a 
budget that says, no matter what, we're going to fund defense 
approps, we're going to fund homeland security approps, the FBI 
has been left out of that.
    Now, fortunately, in discussions with Senator Reed, they 
got it, which is why our appropriations were able to move so 
expeditiously this year. But they've been left out of the 
picture, and as a result have had to keep the pace while the 
hiring and uncertainty was in the air. So they've got a case to 
make about us while we're quizzing them.
    Mr. Hulon. I'm sorry. Senator, we do really appreciate your 
support in that regard, because that is part of some of what we 
have to deal with. And, as we talked about and as it was in my 
opening comments, at the same time that we're taking on a lot 
of this transformation, this revolutionary change in the FBI to 
shift from being focused on law enforcement to be more focused 
on intelligence and national security, we're doing that, and 
we're keeping that ops tempo up at the same time that we're 
doing the transformation with the limited number of resources 
that we have available.
    Senator Mikulski. I'm done for now.
    Chairman Rockefeller. Thank you, Senator Mikulski.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Gentlemen, you indicated that you were not here when 
Governor Kean and Congressman Hamilton were testifying. Did you 
listen to and watch what they were saying?
    Mr. Hulon. We heard some of it. I heard some of it on the 
television.
    Senator Whitehouse. OK. It kind of amazes me that when the 
Chairmen of the 9/11 Commission, who've worked so hard on this 
issue, are here testifying about your agency before Congress, 
you missed any of that. But I guess that's neither here nor 
there.
    Mr. Hulon. Sir, we were here, but we were told to wait in a 
certain area.
    Senator Whitehouse. OK.
    Well, I went back to the 2005 report where they gave 
grades, and although they indicated they weren't all that 
comfortable with grades, the C that the FBI earned in 
developing the national security personnel piece, they said 
they wouldn't improve on it; and indeed, Congressman Hamilton 
said that with respect to WMD issues, not even a C.
    And, you know, I'm new to this. I'm looking at a report 
that says if they don't get it right, we should take this away 
from them. I'm looking at what is one of the top issues our 
country faces. I think everybody agrees with that. I'm looking 
at an issue that has, you know, enormous--I said earlier, it 
kind of transfixes the President and the Vice President. So 
there's clear White House emphasis on this issue, and yet we 
keep hearing about the analyst track issue. There's senior 
turnover. There's this, that and the other.
    What is it? I mean, help me put my finger on what is wrong 
that prevents this from being an A program when, to the best I 
can tell, every bureaucratic force that can be brought to bear 
is ineffectual in getting you to that point? What am I missing? 
What is the holdup? What is the problem? Where are we stuck?
    Mr. Hulon. Let me try to respond to that. Actually, you 
know, I couldn't agree with you more that we would like to move 
faster. And when you go back and you start looking at the 
timetable from 2001 up until now, you're talking about a pretty 
large chunk of time.
    We did make some progress during that time period. And, of 
course, right after 9/11 we were responding to a tremendous 
amount of threats, so we had a pretty high-paced ops tempo. At 
the same time, we were moving forward, making some of the 
transition.
    I think within the last year and a half we have made 
substantial progress with a lot of the initiatives that we put 
in place, a lot of priorities that we have that people have 
talked about, about the numerous priorities that we have with 
the training, the recruitment and bringing the intelligence 
capabilities up to a certain level.
    I think, at the same time, though, in order to make the 
dramatic change that we're expected to make and that we are 
making, it's just something that takes a lot of time to do. It 
was interesting; just yesterday we were talking to the Deputy 
Director from the Canadian Security Intelligence Service, and 
we were talking about the transition, because we're actually 
talking to others and looking to see how we can accelerate our 
pace. And he talked about the establishment of CSIS in 1984 and 
how it's a long-term project to get to where you need to get. 
And they, of course, were split off from the RCMP.
    And he talked about the transformation and the time and the 
change that it takes to get it done. And I think that's what 
we're experiencing now in what we are doing and what we have 
done. As I mentioned in my statement for the record, we have 
taken it to another level and we've brought contractors on to 
help us prioritize and move forward with the transformation.
    And I think that's where we're going to go, and we're 
actually accelerating that. And when you're talking about the 
grade average, you know, C or B or whatever, I think you have 
to also look at the operations that we're carrying out each 
day. We have men and women of the FBI, to include agents and 
analysts, that are working from sun up to sundown to make sure 
that we're safeguarding this country. And we're doing that in 
coordination with our partners in the intelligence community as 
well as the law enforcement community.
    And I think if you look at what we're doing in the field 
with the JTTFs, the joint terrorism task forces, and even some 
of the comments and feedback that you get from our partners in 
the law enforcement community, you will see that we are making 
that change, that transformation. And you talk about 
intelligence-sharing. We're making great strides there, but 
we're not where we need to be yet.
    Senator Whitehouse. Let me ask you real quick about those 
JTTFs. I was the U.S. attorney in Rhode Island. I worked with 
the Bureau on a lot of issues. We were, at that point, probably 
one of the most aggressive groups in the country on terrorism 
protection and so forth. The first operation the FBI ever did 
in terms of having a sort of field drill with all the locals 
involved and all that kind of stuff was a bomb going off on a 
ferry in Providence Harbor. So I'm pretty sensitive to a lot of 
this stuff.
    You know, there are 93 U.S. attorney's offices out there, 
and a lot of work goes into these JTTFs times 93. And you look; 
some of them are pretty rural, pretty remote. I don't know that 
Providence is the real epicenter of terrorist threat. You know, 
it's hard to know where to locate it, but I'm just wondering, 
is it really your evaluation that having all that emphasis on 
JTTFs in every single district is a worthwhile deployment of 
your resources?
    Mr. Hulon. It's a very worthwhile deployment of our 
resources. Number one, I'm not sure that we have one in every 
district. In some divisions, like in some of the major cities, 
we have actually more than one JTTF or module of the JTTF. But 
what you have to look at when you look at the terrorist threat 
is that it's not always in the centers, the metropolitan 
centers. The threat, and also the activity, could be in some 
outlying territory.
    So to actually have the JTTFs the way we have them, we have 
over 100 now. And what we've done is actually brought together 
the law enforcement agencies throughout the country to focus on 
the terrorism mission.
    And when we have investigations and leads and things that 
we're following up on with the JTTFs, they're not just in the 
metropolitan areas. It goes across the country.
    So I think our deployment of JTTFs is very appropriate. And 
from my perspective, I would like to have even more. We get 
requests continually from our partners in the law enforcement 
community that they would like to have more involvement, would 
like to have more JTTFs in other areas. So I think the 
deployment of the JTTFs now is appropriate.
    Senator Whitehouse. Mr. Chairman, I'd like to have a second 
round if I may, if that's convenient, after everybody else is 
done.
    Chairman Rockefeller. Senator Wyden, would you yield? 
Please proceed.
    Senator Whitehouse. Well, I wanted to change to another 
topic, which is the Los Angeles Times story from Sunday, which 
indicated that the FBI is quietly reconstructing the cases 
against Khalid Shaykh Mohammed and 14 other accused al-Qa'ida 
leaders, spurred in part by concerns that years of CIA 
interrogation have yielded evidence that is inadmissible or too 
controversial to present at their upcoming war crimes 
tribunals.
    Do you know if that is true or not?
    Mr. Hulon. I would probably feel more comfortable talking 
to you about that in another setting.
    Senator Whitehouse. The article says that the FBI 
investigations involve as many as 300 agents and analysts. From 
the point of view of deployment, do you know if that is true?
    Mr. Hulon. I wouldn't want to get into those discussions in 
this session, sir. I would be more than happy to talk to you in 
another setting in regards to that, though, sir.
    Senator Whitehouse. It says that according to former Bureau 
officials, the Director pulled many of the agents back from 
playing even a supporting role in the interrogations to avoid 
exposing them to legal jeopardy, in the belief that White House 
and Justice Department opinions authorizing coercive techniques 
might be overturned.
    Is that something we should comment on in a different----
    Mr. Hulon. Yes, sir. We shouldn't talk about any of that in 
this setting.
    Senator Whitehouse. Last, it said, ``Those guys were using 
techniques that we didn't even want to be in the room for,'' 
ascribing that to one senior Federal law enforcement official. 
``The CIA determined that they were going to torture people, 
and we made the decision not to be involved.''
    Same answer?
    Mr. Hulon. Yes, sir. We'd be more than happy to talk to you 
in a different setting in regards to any of that.
    Senator Whitehouse. Thank you, Mr. Chairman.
    I'd like to put the article into the record, if I may have 
unanimous consent to do that.
    Chairman Rockefeller. Absolutely.
    [The Los Angeles Times news article referred to follows:]

              [From the Los Angeles Times, Oct. 21, 2007]

                 FBI WORKING TO BOLSTER AL QAEDA CASES

The U.S. is concerned that evidence obtained from CIA interrogations 
will be inadmissible at war-crimes tribunals.

                            (By Josh Meyer)

    WASHINGTON--The FBI is quietly reconstructing the cases against 
Khalid Shaikh Mohammed and 14 other accused Al Qaeda leaders being held 
at Guantanamo Bay, Cuba, spurred in part by U.S. concerns that years of 
CIA interrogation have yielded evidence that is inadmissible or too 
controversial to present at their upcoming war crimes tribunals, 
government officials familiar with the probes said.
    The process is an embarrassment for the Bush administration, which 
for years held the men incommunicado overseas and allowed the CIA to 
use coercive means to extract information from them that would not be 
admissible in a U.S. court of law--and might not be allowed in their 
military commissions, some former officials and legal experts said. 
Even if the information from the CIA interrogations is allowed, they 
said, it would probably risk focusing the trials on the actions of the 
agency and not the accused.
    The FBI investigations, involving as many as 300 agents and 
analysts in a ``Guantanamo task force,'' have been underway for as long 
as 2 years. They were requested by the Defense Department shortly after 
legal rulings indicated that Mohammed--the self-proclaimed mastermind 
of the Sept. 11 terrorist attacks--and the other Al Qaeda suspects 
probably would win some form of trial in which evidence would have to 
be presented, according to senior Federal law enforcement officials.
    The task force has reviewed intelligence, interviewed the 15 
accused Al Qaeda leaders and traveled to several nations to talk to 
witnesses and gather evidence for use in the tribunals, the Federal law 
enforcement officials said. Like most others interviewed for this 
article, they spoke on the condition of anonymity, citing the 
sensitivity of the investigations, which are being coordinated with the 
Pentagon.
    A Pakistan-based U.S. official who has participated in the hunt for 
Al Qaeda leaders since 2001 said he was interviewed by FBI agents 4 
months ago in Washington. They were ``very aggressively pursuing KSM 
and all of the things he's been involved in,'' he said, referring to 
the accused terrorist by his initials.
    The FBI is especially interested in Mohammed, who during the more 
than 3 years he spent in CIA custody boasted that he had killed Wall 
Street Journal reporter Daniel Pearl and orchestrated more than two 
dozen other terrorist plots. Several senior counter-terrorism officials 
said they believed that Mohammed falsely confessed to some things, 
including the Pearl slaying, under duress or to obscure the roles 
played by operatives who might still be on the loose.
    Mohammed's prosecution is expected to be the centerpiece of the 
military commissions, which could occur as early as next year. However, 
some U.S. officials familiar with them said the tribunals could be 
delayed for years by legal challenges.
    The FBI's efforts appear in part to be a hedge in case the 
commissions are ruled unconstitutional or never occur, or the U.S. 
military detention center at Guantanamo Bay is closed. Under those 
scenarios, authorities would have to free the detainees, transfer them 
to military custody elsewhere, send them to another country or have 
enough evidence gathered by law enforcement officials to charge them 
with terrorism in U.S. Federal courts, some current and former counter-
terrorism officials and legal experts said.
    ``I think there's no surprise that they have to call in the FBI to 
clean up the mess left by the CIA secret detention program,'' said 
Jumana Musa, advocacy director for Amnesty International. ``They would 
be smart to use evidence that did not come out of years of secret 
detentions, interrogations and torture.''
    Special Agent Richard Kolko, an FBI spokesman, said the 
investigations were a natural outgrowth of a long-standing interagency 
effort. ``The FBI will support the prosecution of KSM and other high-
value detainees by making its investigative and evidentiary expertise 
available to the prosecution team,'' he said. He referred all other 
questions to the Defense Department.
    Navy Cmdr. Jeffrey D. Gordon, a Pentagon spokesman, said the 
Defense Department was working closely with its interagency 
counterparts in ``building a case against KSM and scores of other men 
at Guantanamo alleged to have committed law of war violations--
including the attacks of 9/11, USS Cole bombing [in 2000] and East 
Africa embassy bombings [in 1998].''
    Neither those two men nor CIA spokesman George E. Little would 
comment on whether the FBI investigations were being conducted to 
bolster shortcomings in the cases against Mohammed and the others that 
are, at least in part, the result of CIA interrogations.
    FBI officials interviewed for this article emphasized that the 
bureau's probes should not be viewed as a repudiation of the CIA's 
efforts, noting that the spy agency's primary responsibility has been 
to gather intelligence to prevent further attacks, not collect evidence 
for trial.
    But some former and current U.S. officials said concerns about the 
potential inadmissibility of the CIA interrogations, and the 
controversy surrounding them, were the primary reasons the FBI agents 
were sent to gather more evidence, in some cases reinterviewing 
suspects and witnesses.
    The FBI and CIA have appeared to be headed for a collision on the 
issue of detainee interrogations since shortly after the September 2001 
attacks.
    From the outset, the FBI has played a central role in the hunt for 
Al Qaeda leaders, helping the CIA, the military and foreign governments 
track them and process evidence against them. FBI agents initially 
helped interview some of the suspects, with an eye toward gathering 
evidence for a criminal trial.
    After Mohammed's March 2003 capture in Pakistan, some FBI agents 
and Federal prosecutors made clear they wanted him tried before a jury. 
The Al Qaeda leader had been indicted by a Federal grand jury in New 
York in 1996 for his role in an alleged Philippines-based plot to blow 
up U.S. airliners in mid-flight over the Pacific Ocean.
    But the CIA moved aggressively to take over the interrogations of 
Mohammed and other senior Al Qaeda detainees, beginning with suspected 
training camp coordinator Abu Zubeida, who was captured in Pakistan in 
2002. Some current and former FBI officials said the spy agency began 
using coercive techniques such as waterboarding, or simulated drowning, 
in an effort to get the detainees to talk immediately about the 
terrorist network's plans.
    CIA officials told The Times that the FBI wasn't getting crucial 
information about pending attacks out of Zubeida that they knew he 
possessed, and that their ``enhanced'' techniques ultimately worked 
better and faster. Current and former FBI officials said those CIA 
techniques resulted in false confessions that were obtained illegally.
    By mid-2002, several former agents and senior bureau officials 
said, they had begun complaining that the CIA-run interrogation program 
amounted to torture and was going to create significant problems down 
the road--particularly if the Bush administration was ever forced to 
allow the Al Qaeda suspects to face their accusers in court.
    Some went to FBI Director Robert S. Mueller III, according to the 
former bureau officials. They said Mueller pulled many of the agents 
back from playing even a supporting role in the interrogations to avoid 
exposing them to legal jeopardy, in the belief that White House and 
Justice Department opinions authorizing the coercive techniques might 
be overturned.
    ``Those guys were using techniques that we didn't even want to be 
in the room for,'' one senior Federal law enforcement official said. 
``The CIA determined they were going to torture people, and we made the 
decision not to be involved.''
    A senior FBI official who since has retired said he also complained 
about the lack of usable evidence and admissible statements being 
gathered. ``We knew there were going to be problems back then. But 
nobody was listening,'' he said. ``Now they have to live with the 
policy that they have adopted. I don't know if anyone thought of the 
consequences.''
    Another retired FBI agent who helped lead the bureau's Al Qaeda 
investigations said one fundamental flaw in the tribunal process was 
that the accused terrorists might be granted the right to confront 
their accusers in court--even a military one. And the CIA is likely to 
prohibit its officers from taking the stand to face cross-examination 
about their interrogation techniques and other highly classified 
aspects of the spy agency's detainee program.
    ``They have put themselves in a very bad situation here,'' the 
former agent said. ``They have to redo everything because they have to 
come up with clean statements from these [detainees], if they can get 
them, obtained by law enforcement people who can actually testify. The 
CIA agents are not going to testify, nor should they.''
    Pentagon spokesman Gordon and CIA spokesman Little said no decision 
had been made on how much information gathered by the CIA, including 
the interrogations, would be allowed into evidence at the commissions. 
They also said it was too early to tell whether the CIA agents would 
testify, although the courtrooms for the military commissions, Gordon 
said, would be designed with partitions to protect the witnesses' 
identities and with mute buttons to allow for classified testimony.
    ``When it comes to the high-value detainees,'' Little said, ``it 
was, most of all, the efforts of the CIA--following a lawful, effective 
and safe process--that led these terrorists to share concrete, 
actionable intelligence that our government used to identify other 
terrorist figures and disrupt their activities.''
    Some former FBI officials and legal analysts said that even if 
evidence gathered through the CIA interrogations were admissible, it 
had lost significant credibility because of the allegations of coercion 
and torture.
    CIA officials have said that they never tortured the detainees and 
that they operated within the law.
    Ultimately, some of the terrorism suspects confessed. But the 
coercive techniques made even some CIA officials skeptical of whether 
their confessions were believable, much less sustainable in any court, 
one former CIA counter-terrorism covert officer said.
    The decision to minimize the FBI's role in interrogating the 
suspects ``was regarded by many as really being in error, in part 
because [CIA officers] don't have the expertise as to what is 
evidentiary and what isn't,'' the official said. ``And now there are 
all of these consequences.''
    Musa of Amnesty International said: ``People like KSM should be 
held accountable. And the real tragedy would be that the focus of the 
commissions won't be on scrutinizing the conduct of Mohammed and the 
others, but on the conduct of the CIA.''
    Federal law enforcement officials believe they have gathered enough 
admissible evidence to try the high-value detainees. ``We've redone 
everything, and everything is fine,'' one official said. ``So what's 
the harm?''

    Chairman Rockefeller. And before I call on Senator Wyden, I 
want to make it very clear that I know where you two gentlemen 
were during the previous panel. And I want the record to be 
very clear on the fact that we invited you to be here in this 
room during that panel and that it's reasonably inconceivable 
to me that you wouldn't have wanted to have been here.
    Mr. Hulon. That is----
    Chairman Rockefeller. 'Tis a mystery.
    Mr. Hulon. Sir, if that is----
    Chairman Rockefeller. You don't need to answer. I just 
wanted that for the record.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    I'm going to go into this interrogation issue as well. And 
I am talking solely about the FBI, and I think this is the 
matter that we also told your contact folks about.
    And let me start it this way. When the public listens to 
the debate about the Government conducting interrogations, the 
first thing they want to know is that they're being protected 
from those being interrogated who might be ticking time bombs, 
people who might have knowledge, for example, about an imminent 
terrorist attack.
    Now, FBI techniques do not allow for torture in 
interrogation. My question to you is--this is for you, Mr. 
Hulon--do you have confidence that those FBI techniques are 
adequate to deal with these ticking-time-bomb scenarios?
    Mr. Hulon. I would have to respond to that, sir, by saying 
the FBI has techniques that we use, which do not include 
torture or any type of physical abuse. And we have used those 
techniques and we continue to use those techniques, and we've 
been successful with those techniques. But I can't say that in 
every situation----
    Senator Wyden. I understand that. But the question is, are 
those techniques adequate to deal with the ticking-time-bomb 
scenarios that are first and foremost on the mind of the 
American people?
    Mr. Hulon. Those, sir, are the techniques that we have to 
use, and those are the ones that we do use. I can't sit here 
and tell you which techniques would actually work with an 
individual. It would depend on the situation.
    Senator Wyden. Do you have confidence that the tools are 
adequate?
    Mr. Hulon. I have confidence that we are using the 
authorities and the processes and tools that we have, to the 
best of our abilities. And I can't comment about the use of 
torture or anything else because we don't do that.
    Senator Wyden. I think you're still not answering the 
question. I want to ask it one more time. I know what was said 
in closed session. I obviously can't get into it. I still would 
like you to tell me, yes or no, whether you think the tools 
that you have do not allow for torture adequate to deal with 
these matters, imminent terrorist attacks, the threats that 
people are most concerned about. Do you think those tools are 
adequate?
    Mr. Hulon. I can't give you an answer as to the use of 
torture or whether or not----
    Senator Wyden. That's not the question. Are the tools 
adequate, sir?
    Mr. Hulon. The tools that we have as far as our interview 
techniques?
    Senator Wyden. Yes, the tools you have.
    Mr. Hulon. Those are the only ones that I know.
    Senator Wyden. I won't try to ask it again.
    Let me move on, then, to a question about technology. I 
think it's been well-discussed that there are technology 
problems at the agency. And I think the first thing I'd like to 
know is whether agents and analysts at their desks now have 
access to the Internet. I've read various things that there 
isn't universal access. I think it'd be good to have that on 
the record. Is there universal access for agents and analysts 
to the Net at their desk?
    Mr. Hulon. All agents and analysts do not have access at 
their desktop.
    Senator Wyden. Is it 80 percent, 90 percent? Can you give 
me a sense of what it is?
    Mr. Hulon. I'd hate to be quoted at that, but it's not at 
the 80 or 90 percent rate.
    Senator Wyden. It's less than 80 percent.
    Mr. Hulon. Yes, sir.
    Senator Wyden. When would you expect that there would be 
universal access for agents and analysts to the Net at their 
desks?
    Mr. Hulon. Actually, right now I think we have about a 
little over a third of the FBI personnel with access at their--
at least machines per employee.
    It should be about another third deployed within the next 
year, but I can't tell you when every agent and analyst would 
have Internet access at their desktops. But they do have access 
to the Internet. We have stations within field offices that 
people can go to to work at, but we don't have access at 
everyone's desk.
    Senator Wyden. So as of today, though, about a third of the 
agents and analysts have access to the Net at their desks.
    Mr. Hulon. I wouldn't say it would be--I can't say that it 
would be a third of agents and analysts, because it could be 
other employees that would have it at their desktop, depending 
on what they do. But we have about--as far as a ratio, it's 
about a third as far as machines that we have available in 
relation to personnel on board.
    Senator Wyden. Let me see if I can get one other question 
in, gentlemen.
    I thank you for the indulgence, Mr. Chairman.
    In 2004, gentlemen, the Congress gave the FBI the authority 
to hire 24 senior intelligence analysts. But as of last month, 
apparently only a handful have been hired. I've even heard 
reports it's been two. Could you tell us for the record why the 
agency hasn't used those authorities?
    Mr. Hulon. We actually have posted for some of those 
authorities, and we brought some on. We actually have three 
posted now that we are recruiting for. Some of the delays had 
been actually the priorities of the ones that we want to bring 
on board as far as for a specific duty. Some of it we got a 
little bit delayed with some budget constraints. But we are 
moving forward to get those positions filled.
    Senator Wyden. Is it two, though, that have actually been 
hired? Is that correct? Of the authority the Congress gave, of 
the 24, is it correct that 2 have been hired?
    Mr. Hulon. We have hired two, yes, sir.
    Senator Wyden. Thank you, Mr. Chairman.
    Chairman Rockefeller. Thank you very much, Senator Wyden.
    Can I just close this hearing, which I think has been a 
very, very good hearing, without having sort of the apparent 
characteristics of being a good hearing, because I think 
there's enormous frustration on this panel, on the Senate 
Intelligence Committee, about what may or may not be happening 
in the FBI.
    That has been true, incidentally, for several years. That 
is in no way a reflection on either of you. I'm actually quite 
mad at you, Phil Mudd, for not talking more, because you were 
one of our best witnesses always when you were with the CIA. I 
don't know what's happened to you.
    Mr. Mudd. To my left, he's 6'2'' and a lot bigger than I 
am, sir.
    [Laughter.]
    Chairman Rockefeller. But you can dribble right around him.
    And I think it opens up an important dialog. Oversight is 
not meant to be comfortable. We are meant to be civil and 
decent to you as good human beings, which you are, in service 
of your country. But one of the things I, at least, have 
learned over the last number of years is that if you're not 
ready to fire the tough ones and drill down deep, you just 
don't get anywhere.
    I'll just give a small example. Kit Bond asked had your 
testimony been cleared by OMB, or written or cleared, whichever 
it was. When you said no, that is very much the exception in 
all agencies of Government--in all agencies of Government. And 
you may be less of a budgetary matter. But understand--and you 
can feel--and I wish you had been at the first meeting--the 
very deep frustration, but it's a constructive frustration.
    We opened up a new field here this afternoon, at least to 
this person. I doubt Senator Whitehouse--I think he knows 
probably an enormous amount about all of this, but I have yet 
to learn. And yet I look at the FBI in this bifurcated manner 
of arresting the bad guys and then being given this new charge, 
but with an enormous amount of money to carry out the charge, 
which is to protect this country from terrorists, from another 
attack. I don't know anything that's more immediate and 
intimate to my people in West Virginia or Rhode Island, or 
anywhere else than that.
    And so there's a certain discomfort level. Let that be the 
case. Do not be put off by it. Be invigorated by it. Know that 
you're not working alone, but that you're working with a group 
of people who cares very much about what you're doing but want 
you to get it done, and that the ordinary flow of Government is 
not satisfactory to us and cannot be, or else we're not doing 
our job; hence, I think the responsibility on our part to do 
better oversight, more creative oversight, and create many more 
opportunities for us to interact, and thus have sort of an 
intuitive understanding about where you're going, and on your 
part where we're going, what we want, and what you need to tell 
us.
    So that wasn't exactly Shakespearean, but I hope I got my 
point across. And as I say, I do consider it a very 
constructive panel, even though it was not entirely a pleasant 
one. Let that not disturb you.
    Thank you both.
    Mr. Hulon. Mr. Chairman, if I might say something----
    Chairman Rockefeller. Of course.
    Mr. Hulon. We appreciate the opportunity to be here to 
speak with you this afternoon, and I look forward to continued 
dialog because I think we have the same goal in mind, and 
that's to make sure we safeguard this country. And we do 
appreciate your support.
    Chairman Rockefeller. Thank you.
    Mr. Mudd. And if I could add to that, it took me maybe 6 to 
12 months to understand the difference between intelligence 
overseas and security of the United States, and I've been at 
this for 22 years.
    The most, I thought, telling comment today, and we glossed 
over that, was Senator Mikulski saying, ``People don't 
understand what we've asked you to do.'' And I think this is 
correct. We're not about being the CIA or DIA. We're not about 
collecting intelligence. We're about looking at a problem and 
using our combined intelligence/law enforcement skills to do 
something about that problem in a way that provides security 
for Los Angeles or Chicago or Tuscaloosa.
    This is a profound difference, in my judgment, between the 
other intelligence challenges I've seen over time. And I can't 
agree more with Senator Mikulski. This is a lot different than 
what I grew up with. This is bigger, harder, and it has, in 
some ways, greater implications for the security of this 
country.
    The only other thing I'd say, Senators, I think you should 
push us. And in some ways you're too polite. Willie and I are 
responsible for this. This is on our watch. If we don't get it 
right, it's our bad. So you should call us down here. You 
should ask questions. You should ask questions in front of the 
camera.
    We never came here for a job. We never came here for a 
profession. We came here for a mission. And we will prevail.
    Chairman Rockefeller. My mind goes back to the Moussaoui 
incident, where the question was that his passport, I believe, 
or driver's license had run out, and the decision was made to 
arrest him. The decision was not made to surveil him. And I 
think that encapsulates our worries.
    Mr. Mudd. Senator, sorry--I don't agree, but I'll turn it 
over.
    Mr. Hulon. I was going to say, if that was your belief or 
that was what people are thinking when we talk about what the 
FBI is doing now, when we talk about the transformation of the 
FBI, when we talk about the new CT strategy, as I alluded to in 
my statement for the record, we've fundamentally changed the 
way we do business.
    Chairman Rockefeller. And that was a long time ago, and 
you're quite right about that.
    Mr. Hulon. Yes, sir.
    Chairman Rockefeller. All right, let's end on that. The 
hearing is adjourned.
    [Whereupon, at 5:04 p.m., the Committee adjourned.]
  

                                  <all>

</pre></body></html>
